No. 19-511
In the Supreme Court of the United
__________________
FACEBOOK, INC.,
v.
NOAH DUGUID, ET AL.,
__________________

States

Petitioner,

Respondents.

On Writ of Certiorari to the United States Court
of Appeals for the Ninth Circuit

__________________

BRIEF OF AMICI CURIAE
PROFESSIONAL ASSOCIATION FOR
CUSTOMER ENGAGEMENT AND
NOBLE SYSTEMS CORPORATION IN
SUPPORT OF PETITIONER
__________________
KARL H. KOSTER
Chief Intellectual Property
and Regulatory Counsel
NOBLE SYSTEMS CORPORATION
1200 Ashwood Parkway
Atlanta, GA 30338
Telephone: (404) 851-1331
kkoster@noblesystems.com
Counsel for Amicus Curiae
Noble Systems Corporation

MICHELE A. SHUSTER
Counsel of Record
JOSHUA O. STEVENS
MAC MURRAY & SHUSTER LLP
6525 West Campus Oval
Suite 210
New Albany, OH 43054
Telephone: (614) 939-9955
Facsimile: (614) 939-9954
mshuster@mslawgroup.com
Counsel for Amicus Curiae
Professional Association for
Customer Engagement

SEPTEMBER 10, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

Statutory Construction Stops If The Meaning
Of The Statute Is Plain . . . . . . . . . . . . . . . . . . 6

II.

Background – The Two Alternative
Interpretations Of The ATDS Statutory
Definition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

III.

Understanding The Technology Aids
In Interpreting The Statutory ATDS
Definition . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
A. Understanding How Information Is
Stored . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
B. Fundamentals Of Storing Numbers In
Computer-Based Dialers . . . . . . . . . . . . . 13

IV.

To “Store” A Number In A Dialer Likely
Refers To Storing the Number For
Subsequent Access. . . . . . . . . . . . . . . . . . . . . 15
A. Problems Caused By Indiscriminate
Dialing . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

V.

Marks’ ATDS Interpretation Is Premised On
A Limited Understanding Of The Underlying
Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

ii
VI.

Duran’s ATDS Interpretation Is Also
Premised On A Limited Understanding
Of The Underlying Technology . . . . . . . . . . . 23

VII.

Circuits Considering the Underlying
Technology Find A Narrow ATDS
Interpretation Consistent with the Plain
Language . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
A. Glasser – Eleventh Circuit. . . . . . . . . . . . 25
B. Gadelhak– Seventh Circuit . . . . . . . . . . . 27

VIII. If The Statutory Language Is
Unambiguous, Then The Court’s Work Is
Done . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
APPENDIX
Appendix A United States Patent Number
4,741,028 . . . . . . . . . . . . . . . . . . . . App. 1
Appendix B C o m m e n t s
of Noble Systems
Corporation before the Federal
Communications Commission, FCC
DA 18-1014
(October 16, 2018) . . . . . . . . . . . . App. 20

iii
TABLE OF AUTHORITIES
CASES
ACA Int’l v. FCC,
885 F.3d 687 (D.C. Cir. 2018) . . . . . . . . . . . . . . . 29
Allan v. Pennsylvania Higher Education
Assistance Agency,
2020 U.S. App. LEXIS 23935
(6th Cir. July 29, 2020). . . . . . . . . . 2, 4, 30, 31, 32
Bostock v. Clayton County, Georgia,
590 U.S. ___ 140 S. Ct. 1731 (2020) . . . 6, 7, 8, 28
Dominguez v. Yahoo, Inc.,
894 F.3d 116 (3d Cir. 2018) . . . . . . . . . . . . . . . . 10
Duran v. La Boom Disco, Inc.,
955 F.3d 279 (2d Cir. 2020) . . . . . . . . . . . . passim
Gadelhak v. AT&T Servs., Inc.,
950 F.3d 458 (7th Cir. 2020). . . . . . . . 2, 27, 28, 29
Glasser v. Hilton Grand Vacations Co.,
948 F.3d 1301 (11th Cir. 2020). . . . . . . . . . passim
Hampton v. Barclays Bank Del.,
2020 U.S. Dist. LEXIS 145294
(D. Kan. Aug. 13, 2020) . . . . . . . . . . . . . . . . . . . 29
Hughes Aircraft Co. v. Jacobson,
525 U.S. 432 (1999). . . . . . . . . . . . . . . . . . . . . . . . 6
Marks v. Crunch San Diego, LLC,
904 F.3d 1041 (9th Cir. 2018). . . . . . . . . . . passim
Milner v. Department of Navy,
562 U.S. 562 (2011). . . . . . . . . . . . . . . . . . . . . . . . 7

iv
New Prime Inc. v. Oliveira,
586 U.S. ___, 139 S. Ct. 532 (2019) . . . . . . . . . . 31
Wisconsin Central Ltd. v. United States,
585 U.S. ___, 138 S. Ct. 2067 (2018) . . . . . . . 6, 32
OTHER AUTHORITIES
7 FCC Rcd 8752 (1992). . . . . . . . . . . . . . . . . . . . . . . 22
Feder al
Communic ations
Commission,
https://www.fcc.gov/news-events/podcast/
robocalls. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Federal Trade Commission,
https://www.ftc.gov/news-events/mediaresources/do-not-call-registry/robocalls . . . . . . . . 8
Noble Systems Corp., Comments in Response to the
FCC’s Request for Comments on the
Interpretation of the TCPA in Light of the Ninth
Circuit’s Decision in Marks v. Crunch San Diego,
WC Docket Nos. 18-152 & 02-278, FCC DA 181014 (Oct. 16, 2018) . . . . . . . . . . . . . 11, 12, 14, 17
Pub. L. No. 102-243, 105 Stat. 2394 . . . . . . . . . . . . . 9

1
INTEREST OF AMICI CURIAE1
Founded in 1983, the Professional Association for
Customer Engagement (“PACE”) is a non-profit trade
association dedicated to the advancement of companies
that engage customers in a compliant manner using a
variety of channels, including telephonically. For over
35 years, PACE has tracked technology, market trends,
and legal/regulatory developments relevant to the
customer engagement industry. It has members
operating across the country and internationally.
PACE’s members include not only for-profit enterprises
but also charities and professional fundraisers.
Founded in 1989, Noble Systems Corporation
(“Noble”) is a manufacturer and service provider to the
contact center industry. Noble provides various
equipment and software including outbound dialers to
the contact center industry. Noble provides both
premised-based solutions and hosted contact center
software-as-a-service solutions, domestically and
internationally. Noble has been a member of PACE
since 2003.

1

The undersigned counsel timely notified counsel of record for
Respondent and the United States of their intention to file an
amicus curiae brief and such counsel have consented to the same.
Petitioner previously filed a consent for amicus curiae briefs with
the Court. No party or counsel for a party in this proceeding
authored, in whole or in part, or monetarily contributed to this
brief.

2
SUMMARY OF ARGUMENT
This Court is deciding between two competing
statutory interpretations of the Telephone Consumer
Protection Act (“TCPA”). These interpretations pertain
to the definition of an automatic telephone dialing
system (“ATDS”). An expansive interpretation follows
from a presumption that the statutory definition is
ambiguous, but this is predicated on a limited
understanding of technical terms in the statute. The
TCPA’s statutory definition of an ATDS is not
ambiguous when the plain language is read in context
with, and an understanding of, the referenced
technology. The expansive interpretation originates
from the Ninth Circuit in Marks v. Crunch San Diego,
LLC, 904 F.3d 1041 (9th Cir. 2018). The other
interpretation is narrower, flows from the plain text of
the statute, and originates from the Eleventh Circuit in
Glasser v. Hilton Grand Vacations Co., 948 F.3d 1301
(11th Cir. 2020).
This circuit split is further widened with the Second
Circuit adopting an expansive interpretation in Duran
v. La Boom Disco, Inc., 955 F.3d 279 (2d Cir. 2020),
followed by the Seventh Circuit also adopting a narrow
interpretation in Gadelhak v. AT&T Servs., Inc., 950
F.3d 458 (7th Cir. 2020), and most recently the Sixth
Circuit adopting an expansive interpretation in Allan
v. Pennsylvania Higher Education Assistance Agency,
No. 19-2043, 2020 U.S. App. LEXIS 23935 (6th Cir.
July 29, 2020).
The statutory ATDS definition, at its core, is based
on technology. Knowledge of the relevant digital
computer and dialer technology provides helpful and

3
necessary context to interpret the statutory terms. The
Ninth, Second, and Sixth Circuits’ interpretations are
sparse with respect to explaining how the underlying
technology operates. Further, their decisions are
predicated on an understanding that the technology
cannot perform certain recited functions. However, that
understanding is inconsistent with how digital
electronic technology and dialers operated at the time
of the TCPA’s enactment.
Specifically, the Ninth Circuit predicated its
interpretation of the ATDS statutory definition in
Marks in part on the erroneous understanding that “a
device could not use ‘a random or sequential number
generator’ to store telephone numbers.” Marks, 904
F.3d at 1050. This fundamentally pertains to the
capabilities of the relevant technology (i.e., number
generators). Based on this erroneous understanding,
the Ninth Circuit found the statutory language
ambiguous and was thus improperly steered into
adopting an expansive interpretation of an ATDS.
The Second Circuit adopted a similar expansive
ATDS interpretation, also based on a faulty
assumption of the underlying technology. Namely,
“[c]ommon sense suggests that any number that is
stored using a number-generator is also produced by
the same number-generator; otherwise, it is not clear
what ‘storing’ using a number-generator could mean.”
Duran, 955 F.3d at 284 (footnote omitted) (emphasis in
original). Duran concluded the statutory language was
ambiguous based on a lack of understanding how
technology at that time could use a number generator

4
to store, but not necessarily produce, a number to be
dialed.
Finally, the Sixth Circuit in Allan also adopted an
expansive interpretation by following Marks’
assumption of what technology could not do and
Duran’s “common sense” understanding of how
technology operated. Allan, 2020 U.S. App. LEXIS
23935 at *10 (6th Cir. July 29, 2020) (slip op. at 7).
Evidence shows that dialers prior to the passage of
the TCPA in 1991 incorporated a sequential number
generator that was used to store numbers into memory.
Then a random number generator produced these
stored numbers either for immediate dialing or to be
stored in a file for subsequent dialing. Thus, as
discussed below, certain dialer technologies were
known to incorporate both types of number generators
to separately produce and store telephone numbers for
dialing. With this understanding, it becomes clear the
ATDS definition does not contain surplusage.
Thus, the expansive interpretations in Marks,
Duran, and Allan are based on finding the statutory
language ambiguous, as a consequence of a limited
understanding of the capabilities of contemporary
dialer technology. In contrast, other courts reviewing
dialer technology available prior to the passage of the
TCPA have arrived at a comparatively narrower
interpretation of the ATDS definition; one which
adheres to the plain language of the statute.
Specifically, the Eleventh Circuit in Glasser explicitly
considered contemporaneous dialer technology when
forming its narrow interpretation. Glasser found that
dialer technology operation explained the so-called

5
“oddity of ‘storing’ telephone numbers using a number
generator.” Glasser, 948 F.3d at 1307.
This Court should consider the capabilities of
relevant contemporaneous dialers and the operation of
digital electronics technology when interpreting
Congress’ statutory definition of an ATDS. Because
equipment at that time was capable of using a random
number generator and/or a sequential number
generator for producing and storing numbers to be
dialed, the statutory language is not ambiguous. With
a basic understanding of the underlying technology,
any perceived ambiguity in the language evaporates. A
narrow interpretation of the ATDS definition, i.e., one
that requires a random or sequential number
generator, is therefore consistent with the plain
language of the statute.
Finally, this Court should understand that the
narrow ATDS definition is properly calibrated to
prevent the critical harms of indiscriminate dialing by
using random and sequential number generators.
Aligning the interpretation of the ATDS definition with
the statutory text, as the Seventh and Eleventh
Circuits have done, protects consumers and critical
infrastructure from the harms the TCPA was designed
to prevent. The Court should not attempt to re-write
the ATDS definition to accommodate new dialer
technologies nor to accommodate a presumption of
what Congress might have intended. “As in any case of
statutory construction, our analysis begins with ‘the
language of the statute.’ And where the statutory
language provides a clear answer, it ends there as

6
well.” Hughes Aircraft Co. v. Jacobson, 525 U.S. 432,
438 (1999) (citations omitted).
ARGUMENT
I.

Statutory Construction Stops
Meaning Of The Statute Is Plain

If

The

This Court has explained many times over many
years that, when the meaning of the statute’s
terms is plain, our job is at an end. The people
are entitled to rely on the law as written,
without fearing that courts might disregard its
plain terms based on some extratextual
consideration.
Bostock v. Clayton County, Georgia, 590 U.S. ___, ___
140 S. Ct. 1731, 1749 (2020) (slip op. at 24).
Understanding a statute’s terms may involve
consulting extrinsic references. Courts may consult
dictionaries or technical treatises to aid in their
interpretation of statutory terms. See e.g., Wisconsin
Central Ltd. v. United States, 585 U.S. ___, 138 S. Ct.
2067 (2018) (consulting various sources for the
meaning of “money”). Understanding the context of the
statutory language at the time of its passage may
involve consulting historical sources. “[H]istorical
sources can be used for a different purpose: Because
the law’s ordinary meaning at the time of enactment
usually governs, we must be sensitive to the possibility
a statutory term that means one thing today or in one
context might have meant something else at the time
of its adoption or might mean something different in
another context.” Bostock, 590 U.S. at ___, 140 S. Ct. at
1750 (slip op. at 25).

7
Understanding the context of the ATDS statutory
definition benefits from a basic understanding of the
relevant technology of that time. The statutory
language defining an ATDS employs various
technology-based phrases such as “random and
sequential number generators,” “store,” and “produce”
numbers. Understanding whether or how such number
generators could “store” or “produce” a number is
directly relevant to interpreting the text of the ATDS
definition. While contact centers today rarely employ a
strategy of dialing random or sequential telephone
numbers, historical technical resources are relevant
when interpreting the plain meaning of the ATDS
statutory definition and key to determining whether
the definition is ambiguous. One type of historical
technical resource useful for explaining dialer
technology are U.S. patents.
The technological context shows that the plain
language of the TCPA is not ambiguous. Once the text
is determined to be unambiguous, it is unnecessary to
consult the legislative history or Congressional
intention behind the passage of the TCPA. “Of course,
some Members of this Court have consulted legislative
history when interpreting ambiguous statutory
language. Cf. post, at 40 (ALITO, J., dissenting). But
that has no bearing here. ‘Legislative history, for those
who take it into account, is meant to clear up
ambiguity, not create it.’” Bostock, 590 U.S. at ___, 140
S. Ct. at 1749 (slip op. at 24) (quoting Milner v.
Department of Navy, 562 U.S. 562, 574 (2011))
(emphasis in original).

8
Finally, if the plain language of the statue is not
ambiguous, it should not be rejected based on the
speculation of adverse consequences, such as causing
an increase of “robocalls.”2 The cause of unwanted and
illegal calls is complex. It should not be presumed that
one interpretation would minimize or aggravate the
volume of such calls and this aspect should not sway
the Court here to favor one particular interpretation
over the other. Furthermore, attempting to rewrite the
plain language of the statute in an attempt to update
the statute to cover new technologies is not the role of
this Court. “The place to make new legislation, or
address unwanted consequences of old legislation, lies
in Congress. When it comes to statutory interpretation,
our role is limited to applying the law’s demands as
faithfully as we can in the cases that come before us.”
Bostock, 590 U.S. at ___, 140 S. Ct. at 1753 (slip op. at
31).

2

There is no industry-wide accepted definition of what constitutes
a robocall. Even the Federal Communications Commission (“FCC”)
and the Federal Trade Commission (“FTC”) have differing
definitions of a robocall. Cf, e.g., https://www.fcc.gov/newsevents/podcast/robocalls stating while a robocall has become a
general term for any kind of annoying call, the FCC has a specific
definition that depends on whether the call is made to a wireless
phone or a landline phone and https://www.ftc.gov/newsevents/media-resources/do-not-call-registry/robocalls reflecting the
FTC considers a pre-recorded telemarketing call to be a robocall.

9
II.

Background – The Two Alternative
Interpretations Of The ATDS Statutory
Definition

This Court is asked to interpret the statutory
definition of an “automatic telephone dialing system”
(“ATDS”). The TCPA defines an ATDS as follows:
(1)

The term ‘automatic telephone dialing
system’ means equipment which has the
capacity –
(B)

to store or produce telephone
numbers to be called, using a
random or sequential number
generator; and

(B)

to dial such numbers.

Pub. L. No. 102-243, § 227, 105 Stat. 2394, 2395.
This Court must decide between essentially two
interpretations adopted by various circuit courts. The
distinction was distilled by the Eleventh Circuit as
follows:
The first question is what to do with the clause:
“using a random or sequential number
generator.” Does it modify both verbs (“to store”
and “[to] produce”) or just one of them (“[to]
produce” but not “to store”)?
Glasser v. Hilton Grand Vacations Co., 948 F.3d at
1306.
The Ninth Circuit adopted the latter approach in
Marks by holding that an ATDS is equipment that “has

10
the capacity – (1) to store numbers to be called or (2) to
produce numbers to be called, using a random or
sequential number generator – and to dial such
numbers.” Marks, 904 F.3d at 1052. Specifically, a
random or sequential number generator is not
necessarily required in this expansive interpretation.
It is sufficient under Marks for equipment to be an
ATDS by merely having the capacity to store numbers
to be called and dial them. This interpretation was
adopted by the Second Circuit and most recently, the
Sixth Circuit.
On the other hand, other circuits such as the
Seventh and Eleventh Circuits have adopted a
narrower interpretation of the statutory ATDS
definition. The Eleventh Circuit held in Glasser that
the recited random or sequential number generator
phrase modifies both verbs, i.e., “store” and “produce.”
Glasser, 948 F.3d at 1306-1307.3 Thus, the narrower
interpretation requires equipment have the capacity of
using a random or sequential number generator to
store or produce the numbers to be dialed.

3

The Third Circuit also implied an adoption of the narrower
definition in a 2018 opinion stating “Ultimately, Dominguez cannot
point to any evidence that creates a genuine dispute of fact as to
whether the Email SMS Service had the present capacity to
function as an autodialer by generating random or sequential
telephone numbers and dialing those numbers.” Dominguez v.
Yahoo, Inc., 894 F.3d 116, 121 (3d Cir. 2018).

11
III.

Understanding The Technology Aids In
Interpreting The Statutory ATDS
Definition

The ATDS definition involves various technological
concepts, including “random and sequential number
generators” that “store” and “produce” telephone
numbers to be dialed. This technology was used in
dialers preceding the passage of the TCPA. Noble
Systems Corp., Comments in Response to the FCC’s
Request for Comments on the Interpretation of the
TCPA in Light of the Ninth Circuit’s Decision in Marks
v. Crunch San Diego, WC Docket Nos. 18-152 & 02-278,
FCC DA 18-1014 (Oct. 16, 2018) at 10-11, App. 39-41
(“Noble Comments”). The Ninth Circuit rooted its
interpretation of the ATDS statutory definition on the
technical understanding that:
. . . a number generator is not a storage device;
a device could not use ‘a random or sequential
number generator’ to store telephone numbers.
Therefore, Marks asserts, it does not make sense
to read ‘store’ in subdivision (A) as applying to
telephone numbers to be called, using a random
or sequential number generator.
Marks, 904 F.3d at 1050.
Marks is sparse as to why a number generator is not
a storage device or why it could not be used to store
numbers. However, this understanding is
fundamentally predicated on how the underlying
technology operates. It follows that if this
understanding is incorrect, then Marks’ ATDS

12
expansive interpretation is based on a faulty premise
and should not be adopted.
A. Understanding How Information Is
Stored
Modern transistorized digital electronics inherently
store a number in order to process it. Noble Comments
at 7, App. 34-35. Sequential number generators in the
1980’s could have been constructed using special
purpose digital electronic integrated circuits (a.k.a.
‘chips’ that are designed to perform a particular
function) or implemented by using a programmable
computer processor (i.e., a computer chip programmed
to perform various functions), whereas random number
generators were typically implemented using a
computer processor. Noble Comments at 8-10, App. 3539. Whether the number generator is implemented
using a programmed computer processor or a special
purpose integrated circuit, both use transistors to store
the number in binary form. Such storage may be
fleeting and transient in nature.
At another level, numbers can also be stored by
digital electronics for a longer time by being copied into
digital memory. This may be accomplished by using
integrated circuits dedicated to storing information in
memory, which again use transistors. As discussed
below, dialer technology prior to the passage of the
TCPA incorporated both random and sequential
number generators, and such equipment stored
numbers to be dialed, both in a transient manner as
well as in a longer-term manner. Noble Comments at
10, App. 38-39. Thus, Marks’ premise that a number
generator cannot store a number is inconsistent with

13
basic electrical/computer engineering technology, as
well as certain examples of dialer technology of the late
1980’s.
B. Fundamentals Of Storing Numbers In
Computer-Based Dialers
Automated dialing systems at the time of the
TCPA’s enactment were based on electronic digital
computers. These types of computers at the time stored
information in binary form. That is, information such
as numbers and letters were represented by a
combination of ones and zeros (known as “bits”). These
bits, in turn, were represented and stored using
transistor logic where a bit was indicated by the
presence or absence of a voltage. The fundamental unit
for storing a bit, known as a storage cell, involves an
arrangement of transistors known as a “flip-flop.” The
flip-flop circuit could change its state as needed to
represent either a one or zero (hence, the name flipflop).
Any information processed by a computer can be
reduced to a series of bits that are stored by cascading
(i.e., placing in a serial arrangement) literally
hundreds of thousands of flip-flops. A computer
processor chip incorporates hundreds of thousands of
transistors, some of which are configured to store
information being processed. These temporary stores of
information in a computer processor are known as
“registers” and are constructed of cascaded flip-flops.
These registers are a special form of internal storage
optimized for use in the computer processor and are
comparatively limited in storage capacity.

14
A computer processor may move information from
an internal register to another form of memory known
as random access memory (“RAM”) for subsequent
access. This is also a form of “storing” and involves
retaining the information in another form of memory,
which is also constructed of transistors. Typically, RAM
is constructed using chips with larger storage
capacities than found in a computer processor chip.
Thus, computer systems (including smartphones and
tablets) are commonly available for purchase with
different amounts of RAM. However, the same
fundamental transistor circuity is used to store
numbers in RAM as are used in a computer processor.
Noble Comments at 7, App. 34-35.
Originally, RAM was referred to as “primary
memory” and was distinguished from “secondary
memory.” Noble Comments at 7, App. 34-35. Secondary
memory included technology such as floppy disks,
magnetic tapes, and hard disks, and was often used to
store information (i.e., files) for a longer term. Hard
disks did not employ flip-flop transistor circuitry to
store data, but rather employed magnetic storage
material to permanently retain the information after
power was removed from the computer.
Creating sequential or random numbers could be
commonly accomplished by using a computer processor
circuit that was programmed to perform these
functions or in some instances by using a dedicated
circuit designed to only perform those functions. Noble
Comments at 9, App. 37-38. In either case, transistor
circuitry would store these numbers, if only
transiently. Thus, one skilled in the art at that time

15
would know that any random or sequential number
generated by digital electronics would necessarily
involve, at a very basic level, using transistors to
“store” the number generated, at least on a transient
basis.
However, relying on this rather basic, transient
form of “storing” information (though technically
accurate) adds comparatively little to the scope of the
statute. A more nuanced and appropriate
understanding of “storing” a number in the context of
a dialer would be to associate this term with storing a
number in primary memory for immediate dialing or in
secondary memory for later dialing. As discussed
below, dialer technology at the time of the passage of
the TCPA stored generated numbers in this manner.
IV.

To “Store” A Number In A Dialer Likely
Refers To Storing the Number For
Subsequent Access

A preferred understanding is that “storing” the
telephone number by a number generator refers to
longer-term storage of the telephone number in
primary memory (e.g., RAM) or in a file maintained in
secondary memory (e.g., disk). This is the operation of
one type of dialer technology described in U.S. Patent
4,741,028, (“’028 Patent”) entitled “Method of
Randomizing Telephone Numbers,” filed in 1986 and
issued in 1988, several years prior to the passage of the
TCPA in 1991.

16
A. Problems Caused By Indiscriminate
Dialing
Prior to the passage of the TCPA, some callers
adopted a strategy of indiscriminate dialing by dialing
random or sequential telephone numbers within a
central office code. A dialer could be configured to dial
telephone numbers within a specified range; such as
dialing all 10,000 numbers of a single central office
code (i.e., 555-XXXX) in a metropolitan area.
However, indiscriminate dialing caused certain
problems. If numbers within this range were randomly
dialed, then two obvious problems could arise. First,
any numbers in that range assigned to important
services such as hospitals, police, nursing homes, or
emergency responders could be dialed. Second, as more
and more random numbers are generated within this
range and called, it becomes increasing likely that
duplicate telephone numbers would be selected and
dialed, resulting in repeated calls to the same number.
From the caller’s perspective, it would be difficult to
dial all the numbers in the number range without
duplicating many calls to the same numbers.
On the other hand, dialing all 10,000 numbers
sequentially would avoid dialing duplicate numbers
and would also ensure all numbers were dialed.
However, this approach guarantees all numbers
assigned to hospitals, police, etc. would be dialed.
Another problem arose due to the telephone technology
available at that time. An answering party would
remain connected to the caller for up to thirty seconds
after the answering party hung up provided the caller
remained on the line by playing a pre-recorded

17
message. Thus, calling a sequence of telephone
numbers to play a message could result in ‘tying up’
multiple telephone lines at a business assigned
sequential telephone numbers. Noble Comments at 12,
App. 42. This would, effectively cause that business
(e.g., hospital or police station) to be temporarily
incommunicado.
The ’028 Patent describes a dialer that the TCPA
was presumably intended to encompass. The ’028
Patent describes a method of blending random and
sequential number generator technologies to dial
telephone numbers within a defined number range.
The numbers would be initially dialed in a random
manner, but then at a certain point any remaining
undialed numbers are dialed in a sequential manner.
Specifically, the dialer first generates a sequence of
telephone numbers within a specified range, which are
stored into an array in memory. Next, a random
number is generated and used to point to one of the
sequential telephone numbers in the array. That
telephone number from the array is produced to create
a record that is either dialed immediately or stored in
a file for later dialing. In either case, after the
telephone number is selected, it is flagged in the array
as having been selected. Then, the process is repeated
wherein another random number is generated and used
to produce another corresponding telephone number
from the array. However, if that other telephone
number is flagged as having been previously dialed,
then no record is created and that number is neither
dialed nor stored. Otherwise, the number is dialed
immediately or stored for later dialing.

18
If all 10,000 numbers in a central office code are to
be dialed, then at some point, e.g., after 9000 numbers
are flagged, it is highly likely that subsequently
randomly generated numbers will point to telephone
numbers in the array that were previously flagged and
dialed. Thus, to prevent the dialer from repeatedly
selecting numbers already flagged, the dialer is
configured at some point to then sequentially process
the unflagged numbers in the array and sequentially
call them.4 In this manner most of the sequentially
stored numbers are randomly dialed, but at some point,
the remaining sequentially generated numbers in the
array are dialed in sequence.
The ’028 Patent shows in Figure 1 (reproduced
below) an array (element 4) of telephone numbers that
are sequentially generated and stored. A telephone
number in the array is identified by the randomly
generated number and then produced for creating
sequential records in operation 32, which are then
dialed or stored in operation 34.

4

It should be noted that the sequential processing/dialing of
telephone numbers in a list is, by itself, distinct from dialing
sequentially generated numbers. In this example, the array of
stored telephone numbers is, in fact, sequentially generated and
the remaining unflagged numbers in the array are processed
sequentially.

19

The randomly generated number is not necessarily
dialed per se but can be used to produce the
corresponding sequentially generated number from the
array, which in turn is used to create the record that is
dialed or stored. For example, the randomly generated
number may be 13, and the 13th sequentially generated
telephone number in the array is selected for
immediate or delayed dialing.

20
The ’028 Patent explicitly indicates that the
telephone numbers resulting from this process can be
dialed immediately as shown below.

The ’028 Patent also discloses that the generated
records resulting from this process can be stored in a
file, and then dialed at a later time.

To recap, the ’028 Patent discloses generating a
sequence of telephone numbers that are stored in an
array. Next, a random number generator is used to
retrieve a corresponding telephone number from the
array. That number produced from memory can be
used to create a record for immediate dialing or stored

21
in longer term memory for subsequent dialing.
Consequently, a dialer implementing this technology
could use a sequential number generator for storing
10,000 telephone numbers in an array in RAM. The
dialer then uses a random number generator to
produce the numbers (i.e., select, retrieve, and provide
the number from memory) for immediate or subsequent
dialing. The random number generator may also be
involved in further storing the number (albeit in a
different manner, i.e., in a file) for dialing at a later
time.
The harm committed by indiscriminate dialing is
the same, regardless of whether the dialing occurs by
dialing sequentially generated numbers, randomly
generated numbers, or as in the case in the ’028 Patent,
using a combination of random and sequential number
generators. Furthermore, the harm committed by
indiscriminate dialing is the same regardless of
whether the telephone numbers are dialed immediately
after each number is generated or stored in a file and
dialed later. The statutory prohibition against using an
ATDS in the TCPA encompasses all such technological
variations of indiscriminate dialing.
V.

Marks’ ATDS Interpretation Is Premised
On A Limited Understanding Of The
Underlying Technology

The Ninth Circuit determined that the statutory
text in Marks is ambiguous. “After struggling with the
statutory language ourselves, we conclude that it is not
susceptible to a straightforward interpretation based
on the plain language alone.” Marks, 904 F.3d at 1051.
However, this conclusion is based on an erroneous

22
understanding that “a device could not use ‘a random
or sequential number generator’ to store telephone
numbers.” Marks, 904 F.3d at 1050. This
understanding is incorrect at a basic level because
digital electronic random or sequential number
generators inherently store numbers. However, in
light of the above discussion of dialer technology, the
statutory text referencing using a number generator to
store a telephone number could be interpreted as
referring to storing the number in an array in RAM or
in a file as described in the ’028 Patent.
The ’028 Patent discloses a technique of generating
records with numbers that could be dialed immediately
or stored for later dialing. Further, the ’028 Patent
discloses dialer technology incorporating both random
and sequential number generator functions. It would be
consistent with the goal of Congress to ban any
variation of indiscriminate dialing, whether by using a
random number generator, a sequential number
generator, or a combination of the two. It would also be
reasonable for such a ban to encompass dialing
numbers that were immediately produced for dialing or
that were previously stored for subsequent dialing. The
statutory language is consistent with encompassing
these technological variations.5

5

Soon after the TCPA’s passage, the FCC also recognized that
random or sequential number generation is critical to the ATDS
definition: “The prohibitions of § 227(b)(1) clearly do not apply to
functions like ‘speed dialing,’ ‘call forwarding,’ or public telephone
delayed message services (PTDMS), because the numbers called
are not generated in a random or sequential fashion.” 7 FCC Rcd
8752, 8776 (1992).

23
Thus, the statutory language is not ambiguous once
it is recognized how dialers could variously store and
produce numbers for dialing using different number
generators. The statutory ATDS definition is, in fact,
susceptible to a straightforward interpretation based
on the plain language and is precisely tailored to cover
variations in the technology.
VI.

Duran’s ATDS Interpretation Is Also
Premised On A Limited Understanding Of
The Underlying Technology

The Second Circuit based its expansive ATDS
interpretation in Duran on the following technological
understanding:
As discussed above, under the first approach, an
ATDS would need to be able either to “store” or
“produce” numbers using a random- or
sequential-number-generator. But what this
approach cannot explain is why the statute, in
order to achieve its ends, includes both verbs.
Common sense suggests that any number that is
stored using a number-generator is also
produced by the same number-generator;
otherwise, it is not clear what “storing” using a
number-generator could mean. It would be odd
for Congress to include both verbs if, together,
they merely created redundancy in the statute.
Duran, 955 F.3d at 284 (footnote omitted).
Duran relies on “common sense” to conclude that a
number generator storing a number must also have
necessarily produced that number, because otherwise

24
there is a lack of understanding of “what ‘storing’ using
a number generator could mean.” Id.
An understanding of dialer technology demonstrates
how a number generator could store a number, but not
produce it for dialing. As described in the ’028 Patent,
sequential telephone numbers are generated and stored
into an array. Next, the ’028 Patent describes using a
random number generator to produce the stored
number from the array into a record. Thus, while the
sequential number generator stores the number into
the array, the number is produced (i.e., selected,
identified, and retrieved) for dialing using the random
number generator. Thus, it is possible for different
number generators to have different roles with respect
to storing and producing numbers that are dialed.
Furthermore, because a dialer could use a
sequential number generator to store the numbers in
an array and then use a random number generator to
produce the number for immediate or subsequent
dialing, the recitation of “store” is not necessarily
superfluous with “produce.” This addresses a key
reason why some decisions found the statutory
language ambiguous. Specifically, Marks presumed “a
device could not use ‘a random or sequential number
generator’ to store telephone numbers.” Marks at 1051.
Duran admittedly found the same language unclear. “If
the numbers are stored, must they be stored ‘using a
random or sequential number generator’ (whatever
that might mean)?” Duran, 955 F.3d at 283.
Duran characterized these as “technical questions
[that] are not easily resolved.” Id. at 283. In light of
how dialer technology functioned at the time, the

25
answers become clear and the statutory language is not
ambiguous.
It is not necessarily “odd for Congress to include
both verbs” in the ATDS statutory definition and
consequently the two verbs together do not create
surplusage. Duran, 955 F.3d at 284. In fact,
considering available dialer technology, the plain
language is precisely aligned with the goals of banning
various forms of indiscriminate dialing. The plain
language of the ATDS definition encompasses potential
variations of technology used to accomplish
indiscriminate dialing. “[T]here is plenty of evidence
that Congress wanted the statute to eradicate
machines that dialed randomly or sequentially
generated numbers.” Glasser, 948 F.3d at 1311. The
plain language reading of the ATDS definition is
consistent with this goal.
VII.

Circuits Considering the Underlying
Technology Find A Narrow ATDS
Interpretation Consistent with the Plain
Language
A. Glasser – Eleventh Circuit

The Eleventh Circuit analyzed the ATDS definition
in Glasser, which expressly considered the Marks
decision. Glasser concluded that:
We appreciate, as shown, a key source of the
court’s hesitation—the instinct against “using a
random or sequential number generator” to
“store” telephone numbers. But this approach
creates problems of its own, as we have also
shown. To adopt this reading, one must separate

26
the statute’s two verbs (“to store or produce”),
place the verbs’ shared object (“telephone
numbers to be called”) in between those verbs,
then insert a copy of that shared object to the
statute, this time after the now separate verb “to
produce” to make clear that “using a random or
sequential number generator” modifies only “to
produce.” That looks more like “surgery,” in the
words of Hilton, than interpretation.
Glasser, 948 F.3d at 1311 (internal citations omitted).
Glasser did not find storing telephone numbers
using a number generator ambiguous once dialer
technology was understood.
The first hiccup is the oddity of “stor[ing]”
telephone numbers using a number generator.
But this problem fades when one considers how
automatic phone-dialing technology works and
when one keeps in mind the goal of giving
content to each word and phrase in the statute.
Glasser, 948 F.3d at 1307.
Glasser also recognized that numbers produced by
a random number generator could be dialed
immediately or stored for later dialing.
One last point turns on history. The regulatory
record confirms that, at the time of enactment,
devices existed that could randomly or
sequentially create telephone numbers and
(1) make them available for immediate dialing or
(2) make them available for later dialing. See
Noble Systems Corp. Comments at 13.

27
Sometimes storage would happen; sometimes it
wouldn’t. Under this reading, § 227(a) occupied
the waterfront, covering devices that randomly
or sequentially generated telephone numbers
and dialed those numbers, or stored them for
later dialing.
Glasser, 948 F.3d at 1307.
In light of the explanation about how dialer
technology could use a random number generator to
produce a number for immediate dialing or store it for
subsequent dialing, Glasser arrived at a narrow ATDS
interpretation consistent with the plain language of the
statute.
B. Gadelhak– Seventh Circuit
The Seventh Circuit analyzed the ATDS definition
in Glasser and adopted a similar interpretation.
Gadelhak acknowledged that while an argument could
be made that a number generated must be stored,
albeit fleetingly, before it is dialed, Gadelhak found
that “storing” a number is more likely reflective of
storing a number for subsequent dialing.
The record before the FCC reveals that at the
time of the statute’s enactment, devices existed
with the capacity to generate random numbers
and then store them in a file for a significant
time before selecting them for dialing. See Noble
Systems Corp., Comments in Responses to the
FCC’s Request for Comments of the
Interpretation of the TCPA in light of the 9th

28
Circuit’s Decision in Marks v. Crunch San Diego
12015 (Oct. 16, 2018). . . .
Gadelhak, 950 F.3d at 465.
It is not by coincidence that the two circuits that
examined dialer technology narrowly interpreted the
statutory language consistent with its plain meaning.
The other circuits reached an expansive interpretation
predicated on incorrect assumptions of how the
technology functioned, leading to an incorrect
determination the statutory language was ambiguous.
VIII. If
The
Statutory
Language
Is
Unambiguous, Then The Court’s Work Is
Done
This Court’s precedent is clear with respect to
interpreting statutory language. “[W]hen the meaning
of the statute’s terms is plain, our job is at an end. The
people are entitled to rely on the law as written,
without fearing that courts might disregard its plain
terms based on some extratextual consideration.”
Bostock v. Clayton County, Georgia, 590 U.S. at ___,
140 S. Ct. at 1749 (2020) (slip op. at 24).
The circuits interpreting the ATDS definition
without a technological understanding of the statutory
terms reached an expansive interpretation. The
expansive interpretation encompasses equipment that
stores a number and then dials it, which is incredibly
broad. This is so broad, that without any further
limitation, it impermissibly encompasses using modern
smartphones to call a wireless contact whose number

29
is stored in a list. See ACA Int’l v. FCC, 885 F.3d 687,
692 (D.C. Cir. 2018).6
To avoid this undesirable outcome, courts adopting
this expansive definition have been forced to implicitly
narrow this broad language by grafting the phrase
“automatically dialing” into the statutory definition.
Specifically, the telephone number is not merely dialed,
but “automatically dialed.”
Marks interpreted the ATDS definition as initially
not including this term:
Accordingly, we read § 227(a)(1) to provide
that the term automatic telephone dialing
system means equipment which has the capacity
— (1) to store numbers to be called or (2) to
produce numbers to be called, using a random or
sequential number generator — and to dial such
numbers.
Marks, 904 F.3d at 1052.
But Marks later modified its interpretation by
inserting another word, “automatically,” into the
statutory definition:
6

A recent Kansas District Court decision also agreed with Glasser
and Gadelhak that the Marks interpretation would give the ATDS
definition an impermissibly broad sweep. Hampton v. Barclays
Bank Del., 2020 U.S. Dist. LEXIS 145294 (D. Kan. Aug. 13, 2020),
*75. (“Finally, the second interpretation permits the same sweep
that ACA International concluded was too broad. That is, ACA
International’s concern about the FCC’s broad definition of
‘capacity’ also applies to the definition of an autodialer’s
functions.”) (internal citations omitted) (citing Glasser, 948 F.3d at
1309).

30
Because we read § 227(a)(1) to provide that
the term “automatic telephone dialing system”
means equipment which has the capacity —
(1) to store numbers to be called or (2) to produce
numbers to be called, using a random or
sequential number generator — and to dial such
numbers automatically (even if the system must
be turned on or triggered by a person).
Marks, 904 F.3d at 1053 (emphasis added).
The motivation was based on inferring what
Congress meant. “By referring to the relevant device as
an ‘automatic telephone dialing system,’ Congress
made clear that it was targeting equipment that could
engage in automatic dialing. . .” Marks, 904 F.3d at
1052 (emphasis in original). However, implicitly
reading “automatic” dialing into the statute leads to an
odd conclusion: namely that Congress meant to allow
indiscriminate dialing by manually dialing randomly or
sequentially generated telephone numbers but meant
to prohibit automatic dialing of randomly or
sequentially generated telephone numbers. That odd
conclusion illustrates the risk of selecting a path based
on guessing Congressional intent.
Similarly, Allan addresses the Eleventh Circuit’s
“concern that the more expansive interpretation of
‘store’ would capture everyday use of smart phones.”
Allan, slip op. at 14, 2020 U.S. App. LEXIS 23935 at
*22. Allan resolves this practical problem by implicitly
adding “automatic” to the statutory definition. “To that
end, the autodialer ban applies to automatic dialing
systems or artificial or prerecorded voice messages

31
only.” Allan, slip op. at 15 (emphasis in original), 2020
U.S. App. LEXIS 23935 at *25.
This approach bootstraps the meaning of
“automatic” from the term being defined (automatic
telephone dialing system) into the statutory definition
itself. These courts have presumed that Congress must
have intended to incorporate this word into the
definition, based on the term being defined. This again
leads to the absurd conclusion that Congress
considered it acceptable to use equipment that
facilitated manually dialed calls (as opposed to
automatically dialing) using randomly or sequentially
generated telephone numbers.
The definition of an ATDS drafted by Congress is
fundamentally a technology-based definition.
Presumably Congress was cognizant of risks that a
technological oriented definition could become obsolete.
Presumably Congress did not forget to include any
words or intend for words to be implicitly read into its
definition of an ATDS. This Court should not attempt
to modify the plain language of the ATDS definition to:
(1) update it for modern technology, (2) address
potential adverse practical impacts, or (3) guess the
intent of Congress. These are not reasons why judges
should “freely invest old statutory terms with new
meanings…” New Prime Inc. v. Oliveira, 586 U.S. ___,
139 S. Ct. 532 (2019) (slip op. at 7). While it may be
tempting to modernize the definition of an ATDS in
light of what Congress might have wanted, this Court
should “not join this guessing game. It is not our
function ‘to rewrite a constitutionally valid statutory
text under the banner of speculation about what

32
Congress might have’ intended.” Wisconsin Central
Ltd. v. United States, 585 U.S. ___, 138 S. Ct. at 2073
(2018) (slip op. at 7).
CONCLUSION
Two competing interpretations of the ATDS
statutory definition are before this Court. The
expansive interpretation was adopted in Marks by the
Ninth Circuit, in Duran by the Second Circuit, and in
Allan by the Sixth Circuit. These are all predicated on
the ATDS definition being considered ambiguous based
on a limited understanding of how dialer technology
could use a number generator to store a number. In
contrast, other circuits, such as the Eleventh and
Seventh Circuits, considered dialer technology in
interpreting the statutory text and adopted a narrow
interpretation consistent with the plain language of the
statute.
Dialer technology available prior to the passage of
the TCPA was capable of generating sequential
telephone numbers that were stored in an array and
using a random number generator to produce the
number from the array. After the number was
produced, it could be dialed immediately or stored for
subsequent dialing. Thus, it is evident that the
technology at the time used random or sequential
number generators to store or produce numbers to be
dialed.
Consequently, a basic understanding of relevant
technology shows that the plain language of the
statutory text is not ambiguous. The plain language of
the ATDS definition was intended to cover equipment

33
that variously used random or sequential number
generators to store or produce numbers that were
dialed.
Congress knew that indiscriminate dialing causes
the same harm regardless of whether the number was
randomly or sequentially generated and regardless of
when or how the number was dialed. Because
indiscriminate dialing was to be avoided regardless of
the combination of technology used, Congress did not
incorporate surplusage words in the ATDS definition.
Contemporaneous dialer technology shows the
statutory language is not ambiguous, but instead is
precisely tailored for its intended purpose. The Court
should not be tempted to update the interpretation of
the ATDS definition beyond its plain language to
address assumptions of what Congress might have
intended to accomplish with the TCPA. The narrower
ATDS interpretation of Glasser is the appropriate
interpretation of the statutory text This Court should
accordingly reverse the decision below.

34
Respectfully submitted,
KARL H. KOSTER
Chief Intellectual Property
and Regulatory Counsel
NOBLE SYSTEMS CORPORATION
1200 Ashwood Parkway
Atlanta, GA 30338
Telephone: (404) 851-1331
kkoster@noblesystems.com
Counsel for Amicus Curiae
Noble Systems Corporation

MICHELE A. SHUSTER
Counsel of Record
JOSHUA O. STEVENS
MAC MURRAY & SHUSTER LLP
6525 West Campus Oval
Suite 210
New Albany, OH 43054
Telephone: (614) 939-9955
Facsimile: (614) 939-9954
mshuster@mslawgroup.com
Counsel for Amicus Curiae
Professional Association for
Customer Engagement

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A United States Patent Number
4,741,028 . . . . . . . . . . . . . . . . . . . . App. 1
Appendix B C o m m e n t s
of Noble Systems
Corporation before the Federal
Communications Commission, FCC
DA 18-1014
(October 16, 2018) . . . . . . . . . . . . App. 20

App. 1

APPENDIX A
United States Patent
Frimmel, Jr. et al.
Patent Number: 4,741,028
Date of Patent: Apr. 26, 1988
METHOD OF RANDOMIZING TELEPHONE
NUMBERS
Inventors: James J. Frimmel, Jr., Reston; Alan R.
Trefzger, Sterling, both of Va.
Assignee: International Telesystems
Corporation, Herndon, Va.
Appl. No.: 890,644
Filed: Jul. 30, 1986
Int. Cl.4 .............................................. H04M 1/27
U.S. Cl. ........................................ 379/355; 379/92
Field of Search .................................... 379/67-69,
379/88-89, 92, 355-359, 209, 10, 11; 364/717
References Cited

App. 2
U.S. PATENT DOCUMENTS
3,703,727
3,792,203
3,943,289
4,121,830
4,201,896
4,438,296

11/1972
2/1974
3/1976
10/1978
5/1980
3/1984

Knowlton . . . . . . . . . 364/717 X
Martin . . . . . . . . . . . 379/357 X
Sheldon et al. . . . . . . . 379/69
Buckley . . . . . . . . . . 364/717 X
Bower et al. . . . . . . . . . 379/67
Smith . . . . . . . . . . . . . . 379/69

Primary Examiner–James L. Dwyer
Attorney, Agent, or Firm–James Creighton Wray
ABSTRACT
Pseudorandom numbers are generated for telephone
dialing in telephone call management systems by
selecting a range of numbers to be dialed, successively
randomly generating numbers within that range,
comparing each randomly generated number as it is
generated with numbers previously generated and
recorded or called. When a new randomly generated
number matches a previously generated number, a
further number is generated and the compared. When
no match is encountered, the new number is recorded
or called. After recording or calling a predetermined
amount of numbers within the range, remaining
numbers to complete the range of numbers are selected
sequentialy from an array of numbers. The final
numbers are recorded or called in sequence, but the
steps between the final numbers vary randomly
according to the random generation of the numbers in
the first part.

App. 3
9 Claims, 1 Drawing Sheet

App. 4

App. 5
METHOD OF RANDOMIZING TELEPHONE
NUMBERS
BACKGROUND OF THE INVENTION
This invention relates to telephone call
management systems and particularly to choosing
numbers for dialing.
Telephone call management systems may dial
sequential numbers in a particular telephone exchange.
That creates a problem in that some of the number
sequences may be assigned to the same subscriber. A
system that sequentially dials numbers may
successively dial a backup number in a single office.
To try to avoid that difficulty, a base number may
be chosen and may be incremented by a fixed value, as
each number is called in succession. The result is that
all numbers may be called in a particular exchange. In
large offices with more than 10 lines, for example,
repeated calls may be directed to the same office. A
problem exists in how to call numbers to ensure that all
numbers are called within an exchange but to avoid
calling numbers sequentially at a single location.
SUMMARY OF THE INVENTION
The present invention overcomes and avoids the
problems of the prior art by generating random or
pseudorandom numbers. First the range to be called is
chosen. For example, in a three-digit exchange, 10,000
calls may be made to seven-digit telephone numbers
within that exchange. The present system randomly
selects the last four digits. The computer generates
random or pseudorandom numbers and calls them. The

App. 6
system keeps track of what numbers have been called
so far. Each new number selected is checked to see if it
has been called previously. If that number has been
called, another random number is chosen until an asyet-uncalled number is reached. That avoids calling
sequentially, which could result in ringing each phone
in an office in succession.
The present system may be used by calling a
number as soon as it is generated or by generating
records for all numbers and then calling the numbers
according to their position on the generated records. It
is preferable to generate randomly as many numbers as
reasonably possible, flagging numbers in an array as a
new number is generated, and then to fill in the
remaining numbers in sequence by checking the array
for unflagged numbers for adding to records of the
randomly generated numbers. For example, generating
records for all numbers in an exchange requires
generating 10,000 possible numbers. It is preferable to
generate the first 90% of the 10,000 numbers with
random generation and then to fill in the remaining
numbers in sequence with numbers from an array
which have been flagged to indicate that those numbers
have not been randomly generated.
It is possible to generate a pseudorandom number
by dividing a prime number by another prime number,
for example 7, and by dividing the result again by that
same number, e.g, 7. Each result may be used or the
ensuing fraction may be used. Both exist in neverrepeating patterns.
Pseudorandom numbers are generated for telephone
dialing in telephone call management systems by

App. 7
selecting a range of numbers to be dialed, successively
randomly generating numbers within that range, and
comparing each randomly generated number as it is
generated with flags in an array, which indicate
numbers previously generated and recorded or called.
When a new randomly generated number matches a
previously generated number, a further number is
generated and then compared. When no match is
encountered, the new number is recorded or called.
After recording or calling a predetermined amount of
numbers withing the range, remaining numbers to
complete the range of numbers are selected by finding
ungenerated or uncalled numbers in the array and
adding numbers from the array to the generated or
called numbers when no match is encountered. The
final numbers are recorded or called in sequence, but
the steps between the final numbers vary randomly
according to the random generation of the numbers in
the first part.
The preferred system creates the final group of
records from numbers in the table in sequential order
of the numbers.
The preferred system creates an array of sequential
numbers and uniformly flags each number in an
original condition, for example, with a binary one. A
newly generated number is checked to see if the
number in the table has its original flag, one. If so, the
flag is changed to the generated number indicator, e.g.,
zero, and a record is created for that newly generated
number. When, upon checking, a zero or other
generated number indicator is found, the system
simply generates another number and tries again.

App. 8
Finally, after a predetermined amount of new numbers
have been successfully pseudorandomly generated, the
system looks in the array for all flags still in their
original condition. Records are created sequentially for
numbers associated with those flags.
The present invention is a method of checking
previously generated numbers against current ones.
The invention provides a means of indicating or
remembering what numbers have been previously
generated.
After recording or calling a predetermined amount
of numbers within a selected range according to this
invention, the remaining numbers to complete the
range of numbers are selected by checking flags in an
array indexed by the generated or called numbers and
adding a number to the generated or called numbers
based on that index into the array where a flag value
denoting no previously generation is encountered. The
final numbers are recorded or called in sequence, but
the steps between the final numbers vary randomly
according to the random generation of the numbers in
the first part.
The present invention provides a telephone call
management random dialing system. An array
containing 10,000 flags or a range of flag elements is
initialized so that all elements contain the value
denoting no previous generation. A pseudorandom
number is generated from arrays of possible numbers.
The generated random number is used to index into an
array of flags. A file record is created for the generated
random number and the flag indexed by that number

App. 9
is set to a value indicating that the number has been
generated. A further pseudorandom number is
generated from a range of possible numbers. That
further random generated number is checked for
having been previously generated by checking the
corresponding array flag. The array is indexed by the
further number, and a further file record is created for
the further number upon finding that the
corresponding array element has the value denoting no
previous generated. Other pseudorandom numbers are
generated and checked to see whether flags by the
other random numbers have been changed in the array.
The flags corresponding to those numbers are set to a
value denoting generation, and file records are created
for those numbers. At a time when less than a
predetermined percentage of possible numbers have
unchanged flags in the array, the array is checked for
the elements still flagged as not previously generated.
File records are generated or calls are made for those
numbers. If records were generated, records are used
to call after the generation of random records is
complete.
The preferred method of generating sequential
records of numbers to be called in a telephone call
management system comprises selecting a three-digit
exchange and randomly generating numbers selected
from the last four digits of seven-digit telephone
numbers in the exchange, generating a four-digit
random number, and checking with a flagged array
indexed by those random numbers to determine if a
flag has been changed for the generated random
number. If the flag corresponding to the generated
random number is set to the value denoting previous

App. 10
generation, the invention generates another random
number. If a flag is set to the value denoting no
previous generation for the generated random number,
the system changes the flag and creates a record with
the generated random number. The system continues
to generate random numbers and to check each random
number as generated with flags by previously
generated random numbers, generating another
random number upon finding a flag value denoting
previously generation and creating a record with the
most recently generated random number and setting
the corresponding flag upon finding a number not
previously generated. The system counts the records
created in sequence with the randomly generated
numbers and, upon a predetermined count, creates
records with previously non-generated numbers.
The preferred telephone call management number
generating system chooses the range to be called,
generates pseudorandom numbers, checks an array for
previously generated numbers, checks each
subsequently pseudorandomly generated number
against the array of previously generated numbers
using the number as the index into the array, sets the
array element indexed by each number by the value
denoting previous generation, calls each number not
previously in the record, and generates another
pseudoransom number upon finding that a generated
pseudorandom number matches a previously generated
number.
The preferred system then creates records from
numbers not previously flagged or generated in the
array in sequential order of the numbers.

App. 11
In one modification of the invention, numbers are
generated pseudorandomly in ten groups of one
thousand each. The last three digits are randomized.
These and other and further objects and features of
the invention are apparent in the disclosure which
includes the specification with the above and ongoing
description and claims and the drawings.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 is a schematic flowchart for creating a record
of generated numbers and comparing the generated
numbers with flagged numbers in an array.
FIG. 2 is a schematic representation of calling
numbers upon generations of each new number.
FIG. 3 is a schematic representation of calling
numbers after a whole file has been generated.
DESCRIPTION OF THE INVENTION
The present invention provides a telephone call
management random dialing system. A pseudorandom
number is generated from 10,000 possible numbers. A
file record is created for the generated random number.
The generated random number is called or is stored in
a file. A further pseudorandom number is generated
from 10,000 possible numbers. That further random
generated number is compared with earlier random
numbers generated, called or stored and flagged in an
array. A further file record is created for the further
number upon finding no matches in the array. The
further number is called or is stored in the file. Other
pseudorandom numbers are generated and checked to

App. 12
see whether the other random numbers have been
generated. At a time when a predetermined percentage
or less of possible numbers remains ungenerated, an
array is checked for the ungenerated numbers, and a
file is filled with the heretofore ungenerated numbers
which are called in numerical sequence. When calls are
not made immediately upon generating numbers, file
records are generated for those numbers and the
numbers are dialed after randomizing part of or the
entire exchange.
The preferred method of generating numbers to be
called in a telephone call management system
comprises selecting a three-digit exchange and
randomly generating numbers selected from the last
four digits of seven-digit telephone numbers in the
exchange. Generated four-digit random numbers are
checked with an array which indicates previously
generated random numbers to determine if a record
exists for each newly generated random number. If an
indication does exist for that generated random
number, the invention generates another random
number. If a record does not exist for the generated
random number, a record is created with the generated
random number. The system continues to generate
random numbers in sequence and checks each random
number as generated with records of previous random
numbers, generating another random number upon a
record match and creating a record with the most
recently generated random number upon no match.
The system counts the records created with the
randomly generated numbers and, upon a
predetermined count, creates further records in

App. 13
numerical sequence with previously non-generated
numbers.
The preferred telephone call management number
generating system chooses the range to be called,
generates pseudorandom numbers, calls the
pseudorandom numbers in the order generated, makes
a record of previously generated called numbers, checks
each subsequently pseudorandomly generated number
with records of previously generated called numbers,
calls each number not previously shown in the record,
makes a new record for the called number, and
generates another pseudorandom number upon finding
that a generated pseudorandom number matches a
previously generated number.
The preferred system further counts the generated
and called numbers, checks a sequential table of
numbers for numbers previously generated and calls
and creates a record upon finding a number in the table
which has not been generated for calling.
DETAILED DESCRIPTION OF THE DRAWINGS
A system for randomly generating telephone
numbers is generally referred to by numeral 1 in FIG.
1. In the first step, any number, for example, a fourdigit number is generated pseudorandomly 2. That
number generated in step 2 is checked with previously
generated and flagged numbers. For example, an array
4 of previously uniformly flagged 6 sequential numbers
is checked 8 with the new number. If a match is found,
for example, if a changed flag is found 12, a new
number is generated 2. The new number is checked 10
with previously generated numbers. If no match, e.g.,

App. 14
an unchanged flag is found 14, a record 16 is created
and called or stored 18. The system continues to
generate 2 numbers and to check 10 the numbers with
previously stored records 4. Upon finding that a
number has been previously generated, a new number
is generated 2. If the number has not been generated
previously 14, a new record 16 is created and the flag
in the array 4 is changed 20. The number of records is
counted 22. If comparison 24 shows that the
predetermined count 26 has not been reached 27, a
new number is generated 2. When the predetermined
count 26 is reached 28, the last numbers are generated
sequentially by searching 30 through the array 4.
When an unchanged flag is found, a new record is
written 32. The array 4 is provided with all numbers in
the selected range. As a record 16 is created, that
number is found in array 4 and the flag is changed 20
by that number in array 4. After the predetermined
count is reached 28, remaining numbers of array 4 are
written 32 and called or stored 34.
As shown in FIG. 2, records created in Steps 16 and
32 are concurrently used in a DTMF tone generator to
place a call 36. Alternately, as shown in FIG. 3, the
records created in steps 16 and 32 may be added 38 to
file 39 and subsequently called 40. In one embodiment
of the invention, after creation of 9,000 records of
pseudorandom generated numbers, the final 10% or
1000 numbers are created in sequence.
The flagging and changing of the flagging may be
accomplished, for example, by adding or changing a
binary character adjacent the number.

App. 15
While the invention has been described with reference
to specific embodiments, modifications and variations
may be made without departing from the scope of the
invention which is defined in the following claims.
We claim:
1. The telephone call management random dialing
method comprising generating a pseudorandom
number from a range of possible numbers stored in an
array, creating a record for the generated number and
flagging the number in the array, generating a further
pseudorandom number from the range of numbers,
comparing that further generated number with earlier
generated numbers and generating a further record for
the further number upon finding that the number has
not previously been generated and flagging the further
number in the array, generating other pseudorandom
numbers, checking to see whether the other numbers
have been previously generated and creating file
records in sequence for those other numbers that have
not previously been generated and flagging the other
numbers in the array, upon a time when less than a
predetermined percentage of possible numbers in the
range remain ungenerated, checking the array for the
ungenerated numbers in numerical sequence and
generating the heretofore ungenerated numbers in
numerical sequence, generating file records for those
last mentioned numbers and dialing the last mentioned
numbers.
2. The method of generating sequential records of
numbers to be called in a telephone call management
system comprising selecting a three-digit exchange and
randomly generating numbers selected from the last

App. 16
four digits of the seven-digit telephone numbers in the
exchange, after generating a four-digit random
number, checking with an array indicating previously
generated numbers to determine if a previous
generation indication exists for the generated random
number, if an indication does exist for the generated
random number, generating another random number,
if an indication does not exist for the generated random
number, creating a record with the generated random
number, making an indication in the array, continuing
to generate random numbers and checking each other
random number as generated with indications of
previously generated random numbers, generating
another random number upon finding an indication
and creating a record with the most recently generated
random number upon finding no indication and
changing that indication in the array, counting the
records created and, upon a predetermined count,
creating records with previously non-generated
numbers.
3. The telephone call management number
generating method comprising choosing the range of
numbers to be called, generating pseudorandom
numbers within the range, calling the pseudo-random
numbers in the order generated, marking previously
generated called numbers, checking each subsequently
pseudo-random generated number with previously
generated and called numbers, calling each number not
previously called, generating another pseudo-random
number upon finding that a subsequently generated
pseudo-random number matches a previously
generated and called number.

App. 17
4. The system of claim 3 further comprising
counting the generated and called numbers,
subsequently checking an array of numbers with
markings by numbers previously generated and called
and creating a record upon finding a number in the
array which has not been generated and called until
reaching a predetermined count.
5. The method of claim 3 further comprising
stopping the pseudorandom generating after a
predetermined percentage of the range of numbers has
been called.
6. The method of claim 5 further comprising
completing the range of numbers by calling and
creating records from ungenerated numbers in an
array in sequential order of the numbers.
7. The telephone call management method with
random number generation comprising making an
array of all numbers in numerical sequence in a range
of numbers to be called, uniformly flagging numbers in
the array, generating a first pseudorandom number,
finding the first generated number in the array,
checking a flag by that number in the array, if the flag
has been changed, generating a new number, if the flag
in the array by the first generated number has not
been changed, creating a record of the first generated
number and changing the flag in the array by the first
generated number, using the created record for making
a telephone call, generating a second pseudorandom
number, finding the second generated number in the
array, checking the flag by the second generated
number in the array, if the flag has been changed
generating a new number, if the flag has not been

App. 18
changed, changing the flag in the array by the second
generated number and creating a record of the second
generated number, using that second generated
number for making a telephone call, generating an nth
pseudorandom number wherein n is a whole number
greater than two and less than the number of numbers
in the range of numbers, finding the n number in the
array, checking the flag in the array by the n number,
generating a further number if the flag has been
changed, if the flag is in its original state creating a
record of the n number and changing the flag by the n
number in the array, using the record of the n number
to make a telephone call, continuing the generating of
pseudorandom numbers, the finding of the generated
numbers in the array, the checking of flags in the array
by the generated numbers and the creating records and
changing flags in the array and using the records to
place telephone calls, counting records, comparing the
record count with a preset count, if the preset count
has not been reached, continuing to generate
pseudorandom numbers to find numbers in the array
to check the numbers to create records and change
flags and use the numbers, if the preset count has been
reached, searching the array in numerical sequence for
unchanged flags and creating records in numerical
sequence of numbers in the array by flags which
remain unchanged, and using the records to make
telephone calls.
8. The method of claim 7 wherein the using steps
comprise making telephone calls when the records are
created.

App. 19
9. The method of claim 7 wherein the using steps
comprise storing records in sequence as the records are
created for later use in making telephone calls.
*****

App. 20

APPENDIX B
BEFORE THE
FEDERAL COMMUNICATIONS COMMISSION
WASHINGTON, D.C. 20554
WC Docket No. 18-152 & 02-278
FCC DA 18-1014
[Filed October 16, 2018]
________________________________
Request for Comments of the
)
Interpretation of The TCPA in
)
Light of the 9th Circuit’s Decision )
Marks v. Crunch San Diego
)
________________________________ )
COMMENTS OF NOBLE SYSTEMS
CORPORATION

Karl Koster
Chief Intellectual and Regulatory Counsel
Noble Systems Corporation
1200 Ashwood Parkway
Atlanta, GA 30338

App. 21
SUMMARY
Noble Systems, a provider of contact center
premised-based software and cloud-based solutions,
submits these comments in response to the
Commission’s Public Notice of Comments On
Interpretation of the Telephone Consumer Protection
Act (“Public Notice”) in light of the 9th Circuit’s ruling
in Marks v. Crunch San Diego, LLC, No. 14-56834,
2018 WL 4495553 (9th Cir. Sept 20, 2018) (“Marks”).
The Commission seeks comments, in part, to augment
the record being developed in relation to ACA Int’l v.
FCC, 885 F.3d 687 (D.C. Cir. 2018) (“ACA Int’l”). The
Marks decision resulted in a broad holding where the
court stated: “we read § 227(a)(1) to provide that the
term automatic telephone dialing system means
equipment which has the capacity—(1) to store
numbers to be called or (2) to produce numbers to be
called, using a random or sequential number
generator—and to dial such numbers.1
The Marks court essentially adopted the plaintiff’s
proposed construction verbatim, which was premised
on an incorrect technical understanding of the
operation related to a “random or sequential number
generator.” On that incorrect basis, it appears the
Marks court found the statutory definition ambiguous.
Finding the statutory language ambiguous is a
precondition for delving into the contextual and
statutory interpretive aids in order to interpret the

1

As noted infra, the Marks decision stated two slightly different
holdings, which vary as to whether dialing occurs “automatically”
or not.

App. 22
TCPA’s autodialer definition anew. The resulting
holding of the court is inconsistent with itself (as there
are two differing statements of the holding in the
decision), overly broad, and ambiguous as to its scope
and application.
The Marks court appears to have accepted the
plaintiff’s contention “that a number generator is not a
storage device; a device could not use ‘a random or
sequential number generator’ to store telephone
numbers” and used this understanding as the basis for
finding the statutory language ambiguous.2 However,
a review of the technology at the time prior shows that
this understanding is incorrect. First, all digital
electronic devices that generate numbers for processing
inherently store the number in some form of memory.
Second, existing technologies at the time, as borne out
by various identified U.S. patents, show that such
random or sequential number generators used for
dialing telephone calls further stored the numbers
produced in files and then dialed the number. Thus,
such devices could:
1) produce and dial a number (repeating as
needed), or
2) produce a number, store it in a file (repeating
as needed), and then dial the numbers in the
file.
Because random and sequential number generators
unequivocally stored numbers that were to be dialed, it
makes sense to read the statutory language as
2

Marks, p. 19.

App. 23
proposed by the defendant, consistent with its plain
meaning. Specifically, an ATDS encompasses
equipment either stores or produces numbers, by either
a random or sequential number generator, and which
numbers are then dialed. Indeed, this interpretation
covers the two alternatives shown to exist in dialers at
that time, as borne out by U.S. Patent 4,741,028.
Thus, because the court did not have an adequate
understanding of the technology at the time, the
statutory language is not ambiguous as found by the
court. Rather, the statutory language appears
deliberately and carefully crafted to cover two known
modes of operation for dialing numbers using random
or sequential number generators. Because the
statutory language is not ambiguous, it was improper
for the court to proceed to interpret the language anew.
The Commission should be cognizant that the
statutory language is not ambiguous, and is
deliberately crafted to cover the known
contemporaneous dialer technology at the time the
TCPA was passed. The Commission does not have any
basis from deviating from the plain meaning of the
ATDS statutory definition in the TCPA in forming its
rules.
In addition, comments are provided regarding the
Marks court’s opinion on a portion of the ACA Int’l text
allegedly supporting that the statutory language is
ambiguous, as well as the record supporting the
Commission’s ability to adapt to evolving technology
under the TCPA.

App. 24
[Table of Contents Omitted in the
Printing of this Appendix]
***
I.

OVERVIEW

One of the most dangerous roads to travel is found
at the intersection of law and technology. While some
courts regularly address complex technologies,3 many
others do so infrequently and may not be versed in
addressing technological issues. Many appellant judges
are admittedly limited in their understanding of
technology, including digital electronics. As will be
seen, a failure to understand the technology can result
in an “accident” at this intersection, leading to poorly
formed legal conclusions, including a conclusion that
the TCPA statutory definition of an ATDS is
ambiguous, when in fact, the statutory language is
spot-on in addressing the technology and statutory
goals of that time.
A proper understanding of the statutory definition
of an ATDS in the TCPA, as well as evaluating the
Marks decision, requires some basic understanding of
the digital technologies used in that era, which is prior
to the passage of the TCPA in 1991. With this
understanding, it becomes evident that the TCPA’s
statutory language is not ambiguous. It becomes
evident that random and sequential number generators

3

The Federal Circuit Court of Appeals is assigned to handle all
appeals involving adjudication of patents, and therefore regularly
address complex technology. Some of the judges in that court have
formal technical or scientific educational backgrounds.

App. 25
used by telephone dialers in that era both “produced”
and “stored” numbers. Further, in light of identified
patents describing how random and sequential
numbers could be used in dialers, it makes the utmost
sense for the statute to be drafted using the existing
language in order to encompass two obvious variations
of how dialers could dial random or sequential
numbers. In light of this understanding, the statutory
language is not ambiguous and there is no justification
to fashion an alternative interpretation of an ATDS
based on reliance of the canons of statutory
interpretation.
The Marks decision interpreting the scope of an
ATDS is inconsistent, illogical, and ambiguous in its
scope and application. The Commission should not
follow the road taken by Marks and the Commission
conclude the statutory language is, in fact, not
ambiguous. The Commission should first ensure it has
a thorough understanding of digital technology used in
dialers at that time prior to evaluating whether the
statutory definition of an ATDS is ambiguous. Once the
technology is understood, the Commission will find the
statutory language is clear, and the Commission is
then obligated to use the plain language of the statute
in fashioning its rulings.
II.

OVERVIEW OF THE MARKS DECISION
a. ATDS Statutory Definition

The Marks court addressed the statutory
interpretation of an ATDS, which is quite familiar by
now:

App. 26
The statute defined “automatic telephone dialing
systems” (ATDS) as follows:
(1) The term ‘automatic telephone dialing
system’ means equipment which has the
capacity—
(A) to store or produce telephone numbers
to be called, using a random or sequential
number generator; and
(B) to dial such numbers.
Pub. L. No. 102-243, § 227, 105 Stat. 2394,
2395.4
b. The Court Ignored The Context Of
Particular Statutory Language At Issue
The Marks court properly ascertained that ACA
Int’l set aside the Commission’s 2015 and earlier
regulatory orders interpreting the statutory ATDS
definition, and set forth to interpret that language
anew. The Marks court properly identified the first step
of the analysis as starting with the “plain language of
the statute.”5 The court also noted that “[i]t is also ‘a
fundamental canon of statutory construction that the
words of a statute must be read in their context and
with a view to their place in the overall statutory
scheme.’” (Id.) In addition, the court stated: “In
ascertaining the plain meaning of [a] statute, the court
must look to the particular statutory language at issue,
4

Marks at 7.

5

Marks at 18.

App. 27
as well as the language and design of the statute as a
whole.” (Id.)
The key language at issue is “store or product
telephone numbers to be called, using a random or
sequential number generator,” which the court found to
be ambiguous. Thus, it is appropriate to delve into the
context surrounding this particular statutory language.
As discussed below, this conclusion appears to turn on
the understanding that a “random or sequential
number generator” found in dialing equipment could
not store numbers. However, there is no evidence in the
decision itself that the court delved into the meaning
and understanding of this “particular statutory
language at issue” (i.e., “random or sequential number
generator” and its ability to “store” numbers), nor
investigated the context of these terms from a
technological perspective. After examining the context
and particulars of these terms, it will be evident that
the plain language of the statute is not ambiguous, and
therefore the plain language of the statute should be
applied.
c. The Court Did Not Explain Why The
Statutory Language is Ambiguous and
Did So Without Understanding the
Particular Technology at Issue
The court sets up its conclusion that the statutory
language of the ATDS definition is ambiguous with the
following:
Marks and Crunch offer competing
interpretations of the language of § 227(a)(1)(A),
but both parties fail to make sense of the

App. 28
statutory language without reading additional
words into the statute.
Marks points out that a number generator is
not a storage device; a device could not use “a
random or sequential number generator” to store
telephone numbers. Therefore, Marks asserts, it
does not make sense to read “store” in
subdivision (A) as applying to “telephone
numbers to be called, using a random or
sequential number generator.” 47 U.S.C.
§ 227(a)(1)(A). Instead, Marks contends that we
should read the definition as providing that an
ATDS is “equipment which has the capacity (A)
to [i] store [telephone numbers to be called] or
[ii] produce telephone numbers to be called,
using a random or sequential number generator;
and (B) to dial such numbers.” In other words, a
piece of equipment qualifies as an ATDS if it has
the capacity to store telephone numbers and
then dial them.
Crunch, in turn, argues that due to the
placement of the comma in the statute, the
phrase “using a random or sequential number
generator” modifies both “store” and “produce.”
Therefore, Crunch argues that the best reading
of the statute defines an ATDS as “equipment
which has the capacity (A) to store [telephone
numbers produced using a random or sequential
number generator]; or [to] produce telephone
numbers to be called, using a random or
sequential number generator; and (B) to dial
such numbers.” As such, to qualify as an ATDS,

App. 29
according to Crunch, a device must store
telephone numbers that have been produced
using a random or sequential number generator.
After struggling with the statutory language
ourselves, we conclude that it is not susceptible
to a straightforward interpretation based on the
plain language alone. Rather, the statutory text
is ambiguous on its face.6
The court’s holding on the interpretation of the
definition of an ATDS is virtually identical to that
posited by Marks.7 These are shown below for
comparison:
• Marks’ Proposed Interpretation of the ATDS
Definition:
[A]n ATDS is “equipment which has
the capacity (A) to [i] store [telephone
numbers to be called] or [ii] produce
telephone numbers to be called, using a
random or sequential number generator;
and (B) to dial such numbers.”8
• Courts Holding on the ATDS Definition:
Accordingly, we read § 227(a)(1) to
provide that the term automatic

6

Marks, at 19-20.

7

When not italicized, “Marks” refers to the plaintiff and “Crunch”
refers to the defendant.
8

Marks, p. 19.

App. 30
telephone dialing system means
equipment which has the capacity—(1) to
store numbers to be called or (2) to
produce numbers to be called, using a
random or s e quent i al number
generator—and to dial such numbers.
It follows that the court was persuaded by the
argument that “Marks points out that a number
generator is not a storage device; a device could not use
“a random or sequential number generator” to store
telephone numbers.”9
The court’s basis for concluding the statutory
language is ambiguous is not explicitly stated and thus
appears predicated on adopting the understanding that
a random or sequential number generator cannot be a
storage device.10 Based on that understanding, the
conclusion is reached by the court that the statutory
language is ambiguous. However, there is no discussion
in the decision as to the context nor operation of the

9

The court seems to denigrate Marks interpretation as “reading
additional words into the statute”, but if the court’s holding is
similar to Marks interpretation, then this would apply to the
court’s own interpretation as well. It is unclear exactly what
“additional words” the court is referring to in Marks’
interpretation.

10

This position was also bolstered by amicus briefs; see, e.g., Brief
Amici Curiae National Consumer Law Center and National
Association of Consumer Advocated, Docket #91, filed 5/21/2018,
“Numbers cannot be stored using a random or sequential number
generator, so the phrase ‘using a random or sequential number
generator’ must modify only the word ‘produce.’” (Page 10.)

App. 31
particular terms: “random or sequential number
generator” and “store” numbers.
It would follow that if one of ordinary skill in the art
would understand that random or sequential number
generators as found in dialers of that time actually did
storing numbers, then this would refute the basis for
reaching the conclusion that the statutory language is
ambiguous. This is where the intersection of the law
meets technology, and without an understanding of
some basic technological aspects, an accident is waiting
to happen.
Without attempting to overwhelm regulators with
technical details, an attempt is made to demonstrate
that in the timeframe just prior to the passage of the
TCPA (late 1991), one skilled in the art of digital
electronics as applied to dialing technology would
understand that the terms “random number generator”
and “sequential number generator” would have the
ability to “store” numbers for dialing. Further, they
would have understood that “storing” the numbers
could occur at different levels, such that “storing” could
refer to copying the number into a file.
III.

RANDOM AND SEQUENTIAL NUMBER
GENERATORS
a. Brief History of Digital Logic and
Technology

An understanding of the technology of random or
sequential number generators and how numbers are
stored and produced is necessary to understand the
context of the statutory language. Thus, it is

App. 32
appropriate to have a basic understanding of that
technology.
In the 1970’s and 80’s, the development of
integrated circuits (“ICs”) led to improvements in
various products, including devices that originated
telephone calls. ICs were developed that performed
various common, low level functions. At that time, ICs
contained anywhere from a few transistors to
thousands of transistors, depending on the complexity
of the functionality performed. One of the simpler
forms of ICs involved configuring transistors to form
basic logical operations. These basic operations
included “AND” and “OR” comparisons of binary
signals. For example, an output signal could indicate
whether input Signal A was present “OR” input Signal
B was present. The transistors were configured to
perform a set of basic functions called “logic gates.” The
logic gates were diagrammatically represented in
images such as shown below:

App. 33
These logic gates, in turn, could be combined to form a
“flip-flop”, a basic memory cell, shown
diagrammatically below:11

The flip-flop is the smallest memory cell in a digital
system. As stated in a 1981 digital electronics textbook:
The smallest unit of information a digital system
can store is a binary digit, a bit, which has a logic
value of 0 or 1. A bit of data is stored in an
electronic device called a flip-flop or a 1 bit register.
A flip-flop is a type of general memory cell and, as
such, has two stable states in which it can remain
indefinitely – as long as it operating power is not

11

DIGITAL NETWORKS AND COMPUTER SYSTEMS, Taylor Booth,
Wiley and Sons, 1978, page 224.

App. 34
interrupted – and inputs which all its state to be
changed by external signals.12
At this point, a fundamental principle is gleaned
related to modern digital computers – the very
existence of a number in a digital device requires that
the number to be stored in a memory of some form.
Stated another way, if a digital circuit produces a
number, the number must be stored in memory in some
manner. Without storing the number, the number does
not exist. Thus, at a low level, “producing” a number
requires “storing” it at a low level.
At this lowest level, this memory could be a flip-flop
storing a single bit (i.e., a 1 bit register), which is
undeniably a type of memory. But, storing a number
either a 0 or 1 is limiting. A number of flip-flops could
be arranged to store a larger number. When such
arrangements are found internal to a microprocessor
chip, this memory may be called a “register.” Registers
are used to hold a single numerical value. For example,
the output number displayed on a calculator may be a
number stored in a register.
It is possible to create larger memory arrays
external to a microprocessor that are able to store
many numbers. Such memory in a computing system
was originally referred to as “primary memory” in
academic circles; today, it is more commonly referred to
as “RAM” (random access memory). Copying a number
from a register in the computer microprocessor to the
primary memory is also referred to as “storing.” Other
12

MICROPROCESSORS AND PROGRAMMED LOGIC, Kenneth Short,
Prentice Hall, 1981, page 28.

App. 35
forms of non-electronic storage media are used,
formally called “secondary memory” and this is
typically embodied in magnetic storage media or more
commonly referred to as “disc storage.” Copying a
number from RAM to disc is also referred to as
“storing” the number.
b. Sequential Number Generators
As it name implies, a sequential number generator
generates a sequence of numbers. This is also
commonly referred to as a “counter.”13 In the context of
dialing telephone numbers, a sequential number
generator or counter could be used to generate a
sequence of telephone numbers. In one dialer
application, a user could define a particular area code
(e.g., 202) and an central office code (418), and then use
a sequential number generator to start dialing the last
four digits (called the ‘line number’) of “0000” and
ending with “9999.”14 Thus, the entire range of tenthousand telephone numbers from 202-418-0000 to
202-418-9999 could be dialed.15
Prior to the passage of the TCPA, one popular
family of small scale integration ICs available for use
in digital dialers was known as the “7400” family of

13

“Counter - …In electronics, a circuit that counts pulses and
generates an output at a specified Time.” THE COMPUTER
GLOSSARY, 6th edition, Alan Freedman, AMACOM, 1993.
14

See, e.g., Telephone Sequential Number Dialer With Number
Incrementing, U.S. Patent 4,188,510.
15

This central exchange code is used by the FCC.

App. 36
transistor-transistor logic (“TTL”) ICs.16 This family
performed various functions including counters or
sequential number generation for various
applications.17 The specification sheets for these ICs
actually show how the individual flip-flops and logic
gates are logically configured to construct the counters.
Another representation of a counter from a digital
electronics textbook is shown below that counts 0-7.18
The outputs of the flip-flops store the number for the
duration needed, until it is updated with the new
number. The point of illustrating the circuit below is
that it incorporates the aforementioned logic gates and
flip-flops, and thus it inherently stores the numbers it
produces.

16

See, e.g., https://en.wikipedia.org/wiki/7400-series_integrated
_circuits.
17

See, e.g., http://www.ti.com/lit/ds/symlink/sn74ls92.pdf. Although
this is a more recent specification sheet (dated 2018), the same
functionality was available in the 1970’s timeframe. See, e.g.,
http://www.smcelectronics.com/DOWNLOADS/1976TTL%20DATABOOK.PDF

18

DIGITAL NETWORKS AND COMPUTER SYSTEMS, Taylor Booth, 2nd
Edition, John Wily and Sons, 1978, page. 278.

App. 37

c. Random Number Generators
Random numbers are important in analyzing and
experimenting in various scientific fields. The
development of truly random numbers is much more
difficult than it appears, and extensive tomes have
been written about generating random numbers.19 In
the area of computer science, the term “pseudo random
numbers” is frequently used to refer to generating
numbers that are “pretty good” at being random.
In the context of using digital electronics for dialing
telephone numbers, a random number would be
typically generated using a microprocessor executing a
software program. Specialized ICs for performing this
19

See, e.g., http://www.informit.com/articles/article.aspx?
p=2221790. See, e.g., von Neumann J., “Various techniques used
in connection with random digits,” in A.S. Householder, G.E.
Forsythe, and H.H. Germond, eds., Monte Carlo Method, National
Bureau of Standards Applied Mathematics Series, 12 (Washington,
D.C.: U.S. Government Printing Office, 1951): 36-38, available for
download at https://dornsifecms.usc.edu/assets/sites/
520/docs/VonNeumann-ams12p36-38.pdf .

App. 38
function were generally not available. Further, such
microprocessors were becoming readily available in the
1980’s timeframe. One academic paper from 1977
addresses how a microprocessor could be programmed
with an algorithm to produce random numbers.20
As mentioned earlier, microprocessors incorporated
internal memory storing the computational results,
such as a random number. These memory locations are
called “registers” and it is commonly recognized that
these too, are a form of memory. (“One of the major
uses of the flip-flops is to form registers which are used
to store information during some portion of an
information processing task.” 21 ) Because a
microprocessor generates the random number based on
a software program, the same software program could
also copy (or “store”) that number into other forms of
memory, such as primary memory (RAM) or secondary
memory (disc storage).
The above digression into digital electronics is
intended to demonstrate that prior to the TCPA, the
basic building blocks of digital technology (flip-flops)
20

A Random Number Generator for Microprocessors,
Microprocessors in Simulation, R. Mueller, D. George, and G.
Johnson, Microprocessors in Simulation, Emulative Systems
Company, April 1977. Available for download at:
http://citeseerx.ist.psu.edu/viewdoc/download?doi=10.1.1.862.531
&rep=rep1&type=pdf
21

DIGITAL NETWORKS AND COMPUTER SYSTEMS, Taylor Booth, 2nd
Edition, John Wily and Sons, 1978, page. 232. See also,
MICROPROCESSORS AND PROGRAMMED LOGIC, Kenneth Short,
Prentice Hall, 1981, page 112 showing various registers in the
8085A microprocessor system.

App. 39
were well known for use in sequential number
generators and in microprocessors that would store
sequential and random numbers respectively. It is
inherent that digital circuitry used to produce either a
sequential number or a random number must at a
basic, low level, store that number in some fashion.
Thus, it is incorrect to assert that such number
generators did not store numbers.
d. Digital Dialing Technologies Prior to
Passage of the TCPA
However, the above does not support that such
digital technology was used in dialers. For this
purpose, a convenient source of technology specific
information is maintained by the United States Patent
and Trademark Office (“USPTO”) in the form of
patents. Patents illustrate not only the functions
accomplished, but frequently detail how technology is
used to implement those functions.
The use of a sequential number generator for
initiating calls was well known prior to the passage of
the TCPA in 1991, as evidenced by U.S. Patent
4,188,510, entitled “Telephone Sequential Number
Dialer with Number Incrementing,” filed in 1978.22
Without digressing into its specific operation, attention
is drawn to FIG. 4, which represents “a functional
block schematic diagram of circuitry for generating dial
pulses to dial a telephone number.”23
22

https://patentimages.storage.googleapis.com/24/d3/aa/275
bab6d835b7a/US4188510.pdf
23

U.S. Patent 4,188,510, col. 3, lines 27-29.

App. 40

Even without understanding how this circuit functions,
it can be observed that it includes a “digit counter” 266,
various flip-flops (“F/F”) 270, 252, and logic gates 286,
274. In other words, this demonstrates that technology
for sequentially dialing telephone numbers used the
aforementioned digital circuitry and stored the
numbers produced.
Another patent detailing a system for
indiscriminate dialing is U.S. Patent 3,943,28924,
entitled “Automatic Telephone Caller,” filed in 1974, 17
years prior to the passage of the TCPA. Random
number generators were also well known, as described
in U.S. Patent 4,922,520, entitled “Automatic

24

https://patentimages.storage.googleapis.com/37/2b/7c/20625e71e
8090f/US3943289.pdf

App. 41
Telephone Polling System,” filed in 1989.25 A quick
examination of the various figures associated with
these patents also shows that the dialers incorporated
various logic gates and flip-flops, and so that they also
stored the random/sequential numbers they produced
for dialing.
The above patents illustrate that the technology
used for generating and storing random or sequential
numbers at that time actually was used to dial the
numbers. This by itself should discredit any
assumption that random or sequential numbers
generators cannot be used to store information used for
dialing.
e. There is Another Form of “Storing”
Numbers by a Sequential or Random
Number Generator
It seems unlikely that Congress was thinking of
such a low level of technical detail involving flip-flop
registers when it drafted the TCPA statutory language
for “storing” and “producing” numbers using a random
or sequential number generator. It seems more
plausible that Congress was considering a higher form
of “storing” numbers – storing numbers in a file.
Congress was cognizant that certain telemarketers
were using databased or lists (i.e., files) for dialing in
their operations.26

25

U.S. Patent 4,599,493, filed in 1984, disclosed a system for what
is essentially predictive dialing.
26

See, e.g., House of Representatives Report 102-317,Report from
the Committee on Energy and Commerce on the Telephone

App. 42
As noted earlier, copying a number to primary
memory or secondary memory is also a form of
“storing.” To illustrate this distinction between
“storing” numbers in a file and “producing” telephone
numbers to be dialed, reference is made to U.S. Patent
4,741,028, (“’028 Patent”) entitled “Method of
Randomizing Telephone Numbers,” filed in 1986, a
copy of which is provided as an appendix. This patent
effectively illustrates the concepts of random number
generation, sequential number processing, and most
importantly, a concept of “storing” that is distinct from
“producing” numbers that are dialed.
A high level summary/background of this patent is
helpful. The TCPA identified one problem with
sequential dialing, which was that this process could
“tie up” multiple telephone lines going to a single
location because the line was not released when the
caller disconnected.27 The ‘028 patent addresses this
problem when dialing all 10,000 telephone numbers in
a telephone exchange in sequence.28 The ‘028 patent
first dials random numbers selected in that range of
10,000 numbers. Thus, if the area/telephone exchange
was, e.g., 202-418-XXXX, the system would use a
random number generator to select the last four digits
(XXXX) (a.k.a. “line number”) to be dialed.

Advertising Consumer Rights Act, discussing use of databases in
automated systems, page 7.
27

See, e.g., Senate Report 102-178, p. 10 discussing the
“disconnection problem.”
28

‘029 Patent, col. 1, lines 15-30.

App. 43
If numbers are randomly generated and dialed, then
there is a potential problem of duplicating calls to the
same number, which was to be avoided. (After all, the
same number could be randomly selected twice or
more.) The ‘028 patent recognizes that the first number
selected would not have been previously dialed, so it
could be dialed without any possibility of duplicating a
call to the same party. But, then the second number
randomly generated has a very slight chance of
duplicating the first number; likely the second number
would also not have been previously dialed. It is
obvious as more numbers are randomly generated, (i.e.,
generating a few hundred random numbers), that
eventually a random number would be generated that
would duplicate a prior number used to make a call. To
avoid dialing the same number twice, the system would
store or flag in a table each random number generated,
and then check each new random number generated to
see if it duplicates a prior number produced. If a new
randomly generated number was previously stored or
flagged, it could be discarded. If a new randomly
generated number was not previously stored or flagged,
then it could be stored or flagged to avoid future
duplicates. In this way, generating duplicate random
numbers for dialing could be avoided.
To summarize the concept, a table of 10,000
numbers could be created in memory, and each time a
random number was produced, the corresponding table
entry (a “record”) is updated/checked. If that table
entry had been previously flagged, then the current
number is a duplicate. If that number entry was not
previously flagged as having been generated, then the
number can be used. Flagging a table entry indicates it

App. 44
was produced. In this manner, each random number
produced could be checked so that duplicates could be
avoided.
While initially generated random numbers are
unlikely to be duplicated, it becomes apparent that as
more and more numbers are generated and flagged,
more duplicate numbers will be encountered. While
this scheme avoids dialing a duplicate number, the
dialing of non-duplicate numbers becomes slower and
slower. At some point, if 9000 numbers were randomly
generated, it becomes more and more difficult to
randomly generate the remaining (non-previously
dialed) numbers.29 More specifically, if 9995 numbers
have been selected, what are the odds that the next
generated number will be one of these five unused
numbers?30 The ‘028 patent identifies that at a certain
point, it would be more effective to review the list of
entries in the table that have not been previously
flagged, and then fill in those numbers in the table in
sequence.31 That way, all 10,000 numbers in the
telephone exchange could be guaranteed to be dialed
without duplicating calls to the same number.
The above effectively demonstrates how telephone
numbers can be randomly generated and stored for
dialing. However, the teachable moment of the ‘028
patent involves Figures 2 and 3. These figures provide
insight as to two fundamental modes of dialer
29

See, e.g., U.S. Patent 4,741,028, col. 1, lines 40-56.

30

The odds would be 5/10,000.

31

See, e.g., U.S. Patent 4,741,028, col. 5, lines 29-35.

App. 45
operation with respect to processing the numbers
generated. In FIG. 2, the process involves generating a
‘record’ (i.e., a number to be called) and then
immediately dialing the number after it is created.

Specifically, the “records created in Steps 16 and 32
are concurrently used in a DTMF tone generator to
place a call.”32 In essence, after each number is
generated, the number is used to make a call, i.e., it is
dialed.33
The other way in which the system could function is
shown in FIG. 3. The text describes this as
“Alternatively, as shown in FIG. 3, the records created
in steps 16 and 32 may be added 38 to file 39 and
subsequently called 40.”34

32

Patent 4,741,028, col. 5, lines 29-31.

33

DTMF is “dual tone multiple frequency”, commonly known as
“touchtones.”
34

Id., col. 5, lines 31-33.

App. 46

One skilled in the art would interpret the process 38
(“STORE”) as copying the number from one memory
storage (a register) to another memory storage
(primary or secondary memory).
So, to recap, FIG. 2 refers to generating (or
producing) a number, which is stored in a register at a
low level, and then used to immediately originate a
call. FIG. 3 refers to creating a number, which is copied
into another memory (i.e., stored in a file) with other
numbers for longer term storage. After the file is
completed, the file is then used to originate calls.
Thus, the ‘029 patent demonstrates that it was well
known to use a random number generator to:
• produce a random telephone number, which is
then dialed, or
• produce a random telephone number, which is
stored in a file, and then dialed.
In the first case, the process could be repeated as many
times as needed. A number is generated and dialed and

App. 47
repeated until a target goal is reached (e.g., all 10,000
numbers were dialed). In this manner, the generated
number, although stored in a register, would not be
stored in a file, e.g., along with a collection of other
numbers. In the second case, the generated numbers
could be moved from a register to a file and stored with
other generated numbers. Then the dialing of the
numbers in the file is performed.
It becomes apparent that either method results in
calls to all the numbers in the telephone exchange.
From the perspective of regulating sequential calling,
there is little different between:
1) producing a number and dialing it (and
repeating this), or
2) producing a plurality of numbers, storing them
in a file and then dialing the numbers.
If the purpose of the TCPA was to prohibit
indiscriminate dialing for telemarketing calls, then
both approaches should be prohibited. It would be
ineffective for Congress to craft a statute that
prohibited process #1, but allowed process #2, or vice
versa. It would be obvious that a prohibition should
encompass both common implementations. Congress
addressed this by defining the scope of the ATDS to
encompass either implementation.
In light of the above practices, the TCPA statutory
definition of an ATDS would be stated as encompassing
equipment having the capacity:

App. 48
(A) to store or produce telephone numbers to be
called, using a random or sequential number
generator; and
(B) to dial such numbers.
This statutory language, interpreted by its plain
meaning, would encompass equipment that operates as
defined by FIG. 2 of the ‘029 Patent, where the number
is produced by a random (or sequential) number
generator and dialed, or operates as defined by FIG. 3
of the ‘029 Patent, where the number is stored in a file
by a random (or sequential) number generator and
then dialed.
In light of this, it is incorrect to conclude that the
language is ambiguous because “a number generator is
not a storage device; a device could not use ‘a random
or sequential number generator’ to store telephone
numbers.”35 The statutory language is not ambiguous.
Rather, the TCPA language of an ATDS, is deliberately
and perfectly adapted to address the dialing
technologies of the time. Once the technology is
understood, it becomes apparent the language is not
ambiguous, but deliberate, purposeful, and
appropriate.

35

Marks, p. 19.

App. 49
IV.

THE 9TH CIRCUIT INTERPRETATION OF
THE STATUTORY ATDS DEFINITION IS
PROBLEMATIC

The 9th Circuit has two distinct holdings, which are
referred to as the “first definition” and “second
definition.” The difference emphasized below.
1. Accordingly, we read § 227(a)(1) to provide that
the term automatic telephone dialing system
means equipment which has the capacity—(1) to
store numbers to be called or (2) to produce
numbers to be called, using a random or
sequential number generator—and to dial such
numbers.36
2. Because we read § 227(a)(1) to provide that the
term “automatic telephone dialing system”
means equipment which has the capacity—(1) to
store numbers to be called or (2) to produce
numbers to be called, using a random or
sequential number generator—and to dial such
numbers automatically (even if the system
must be turned on or triggered by a
person).…37
This raises a fundamental issue regarding whether
“automatically” is included in the 9th Circuit’s definition
of an ATDS, and, if so, what does that term mean. The
definition appears overly broad if the term
“automatically” is not included. On the other hand,

36

Marks, p. 23.

37

Marks, p. 24.

App. 50
reading “automatically” introduces an ambiguous word
and concept into the statutory language that is not
stated in the original statutory language.38
The plain reading of the original statute definition
prohibited dialing random or sequential numbers
regardless of whether this was done manually or
automatically, and this is consistent with its purpose of
prohibiting indiscriminate dialing. It would seem
facially deficient if the statute was interpreted to, e.g.,
prohibit automatic dialing of random or sequential
numbers, but allow manual dialing of random or
sequential numbers.
a. The First Definition Is Overly Broad
The first function in the first definition (“store
numbers to be called”) resides in virtually every
modern landline and wireless phone device, as they
typically include features as speed calling, last number
redial, or repeat dialing by storing the number. This
requires storing numbers that are to be called. The 9th
Circuit did not appear to be cognizant of the concepts
disclosed supra regarding storing numbers in registers,
primary memory, etc., so it is difficult to attribute some
additional meaning to the court’s use of “storing,” such
as storing in a file. Very few modern telephone devices
do not store numbers in some form. One example of a
telephone device which does not store numbers to be
called is the rotary dial (e.g., Bell System Model 500

38

Recall that the court denigrated Mark’s proposal as reading
additional words into the statute. Marks, p. 19. Is “automatically”
the word referenced by the court?

App. 51
telephone set, circa 1950's), which did not incorporate
digital electronics.
The second function, “dial those numbers,” is found
in virtually every consumer phone device. Very few
manufacturers produce phones that do not allow
dialing of a telephone number.39 It would be a
contradiction to have a phone that stores numbers but
does not dial them. The purpose of storing numbers is
to facilitate dialing (e.g., a speed dialing list).
The requirement to process a plurality of numbers,
with respect to storing and dialing, is also extremely
common. There is no implication that the definition
requires storing or dialing within any time period or in
a particular sequential order. Thus, storing and dialing
one number, and then another number, would meet the
definition. Thus, it seems that the first definition
encompasses virtually all modern phone devices. This
is too broad, and would encompass virtually all mobile
phones.
b. The Second Definition Is Ambiguous
Assuming that “automatically” somehow limits how
the numbers are dialed, this term could be interpreted
to mean that some form of direct causal human
intervention is required to effect the dialing of the
stored number.
There is no regulatory definition in the TCPA
context of “dialing” that Noble Systems is aware of, let
39

There some special applications of phones configured to only
receive calls. See, e.g., https://www.alzstore.com/phone-withoutdial-pad-p/0077.htm.

App. 52
alone “automatic.” The Commission could seek input as
to the scope of that term (“dialing”) as it would apply to
the ATDS definition. Dial pulse dialing (available as
the primary consumer option up to the 1950s, but still
available today), required digit-by-digit entry by the
human user, typically via a rotary dial phone.
Similarly, dual-tone multiple frequency (a.k.a.
“touchtone” phones) also require digit-by-digit entry by
the human, typically via a push-button phone. These
technologies resulted in sequential digits being
signaled out from the phone to the phone switch.
Modern VoIP and wireless phones typically utilize
a form of “en-bloc” signaling from the phone device to
the switch, where all the telephone digits are sent in
one message. A common form of interaction is
illustrated with a cellular phone. The user may select
each digit individually, but nothing is sent until the
user presses a “send” button. Then, the phone sends a
message with all the digits that the user entered. The
switch receiving the call request with the digits cannot
differentiate between the user having manually
selected all the digits versus the user pressing a speed
dial (or redial) function. It is unclear whether
“automatically” is intended to limit any one of these
particular forms of dialing.
i. The Timing of Human Intervention is
Unclear
In the above examples, it is implied that the user is
causing a call to be establishing in real time for that
user. But, the word “automatically” does not
necessarily imply such limitations. A fundamental
question is how soon relative to the human

App. 53
intervention (i.e., entering digits) is the call required to
be established? There are various “clicker”
applications40 for use in contact centers, which allow an
agent to enter a number of call setup requests, which
can be queued for future calls. For example, an agent
could enter 1000 mouse clicks on Monday which are
stored in memory, and cause 1000 calls to some
unspecified number to originate later that day, or on
another day, or as when needed for the agent. Would
these be deemed “automatic” or not? Do the calls have
to be set up immediately? Within an hour? Or with the
same day?
ii. Does the Human Input Require
Identification of the Number To be
Dialed?
Historically, when a caller dialed a number, the
user had to know and then indicate the number to dial.
Today, with smartphones, when a caller initiates a call,
the caller may not readily know the digits being dialed,
but may only know the name of the person the call is
directed to. For example, a user dialing from a contact
list may select an entry (“spouse at work”), but not
readily know the number itself. Granted, the user could
look up the number in the phone’s directory, but too
often with smart phones, the user forgets the number,
and merely selects a name to be dialed. In a contact
center, an agent may select a “dial now” function key
and may not know the number. An agent may select a
name on a screen without knowing the number to be

40

So called because a user “clicks” a computer mouse as input to
request a call.

App. 54
dialed. The computer/phone device automatically maps
the contact’s name to the number stored, and uses that
number. How does this fall within the scope of
“automatic”?
Now, consider a more extreme example. An agent is
presented with a document having 1000 account
numbers and telephone numbers. Likely, they can only
see 30-50 accounts at a time on their computer screen.
But, the agent may select all the accounts in the
document with a single function key, and that indicates
to the dialer that all the numbers should be dialed.
That input essentially indicates the first number in the
list is to be dialed, and after completion, the second
number is dialed, etc. The input does not indicate the
number to be dialed, but rather a computer program
determines that number. Is this allowed? If not, then
how is it distinguish from the concept of mapping a
contact name to a number? Does it matter if one input
maps to multiple numbers? If so, then would having
the agent enter a 1000 separate clicks (call setup
requests) address this deficiency? If an agent enters a
click, thereby causing a call to be established without
knowing either the number or the name of the person
the call, how is this different from asking a computer to
select and dial a number?
iii.

Does the Call Dialed by a User
Have to be the Same Call
Connected to that User?

Most often, individual users of a phone device
originate calls for themselves. In a contact center, this
could be different. Could Agent A originate a call on
behalf of Agent B? Could Agent A manually dial a

App. 55
number resulting in a call being established, which is
then transferred or otherwise connected to Agent B,
who is presently available? There various contact
center architectures where one agent provides inputs
used to originate calls at a later time which are then
connected to other agents.
This configuration could be further modified by
using the aforementioned timing requirements.
Specifically, can Agent A dial a number today, which is
used to establish a call tomorrow for Agent B? Does the
determination of whether this involves an ATDS
depend on whether Agent A manually dialed the digits
or performed some type of “clicker” input? Or another
case: can Agent A submit a request for some number in
a list (without know specifically the name or number
selected) to be dialed in the future and have that call
connected to Agent B, whenever Agent B is available?
The scope of the term “automatically” is subject to
interpretation, and is likely to result in extensive
litigation to define its metes and bounds. The scope of
how proximate human intervention is required to
accomplish call origination would have to be defined in
excruciating detail to provide guidance to call
originators. It can be expected that technology will
likely find crevices in the regulatory interpretation to
eke out further efficiencies, raising future questions
requiring litigation as to whether the newest
technological innovation falls with the “automatic”
dialing limitation.
Noble contends that chasing a technological
restriction in a statutory definition of an ATDS to
achieve a policy goal is unlikely to be effective. The

App. 56
TCPA has not been effective in stopping illegal
“robocalls” (as defined as calls playing pre-recorded
messages). A called party receiving a call, where an
agent is connected to the caller and speaking to the
called party, is not concerned how that called was
dialed. An individual receiving an unsolicited
telemarketing call where a recorded announcement is
played is not concerned how the call was dialed – they
are aggravated by the purpose of the call and the
recorded announcement. An unwanted telemarketing
call that is received is unwanted, regardless of how
that call was dialed. A scam call is unwanted, not
because it is dialed automatically, but because it is a
scam call.
Adopting “automatically” or “human intervention”
is not supported in the statutory language, and
introduces further ambiguity and promises to lead to
years of further litigation to clarify the metes and
bounds of such an interpretation. Further, because the
statutory language is clear, and purposefully directed
to address dialer technology, there is no basis for
introducing these further limitations.
V.

ACA INT’L DID NOT ADDRESS WHETHER
THE STATUTORY ATDS DEFINITION WAS
AMBIGUOUS

The Marks decision cites portions of the ACA Int’l as
supporting its position that the statutory language of
an ATDS is ambiguous. That portion is replicated
below:
After struggling with the statutory language
ourselves, we conclude that it is not susceptible

App. 57
to a straightforward interpretation based on the
plain language alone. Rather, the statutory text
is ambiguous on its face. The D.C. Circuit
apparently agreed, stating that “[i]t might be
permissible” for the FCC to adopt an
interpretation that a device had to generate
random or sequential numbers in order to be an
ATDS, or that a device could be an ATDS if it
was limited to dialing numbers from a stored
list. ACA Int’l, 885 F.3d at 702–03. We therefore
turn to other aids in statutory interpretation.41
The Marks court (along with others) has
misinterpreted the context of the ACA Int’l and the
logic applied. Firstly, the context of what the court in
ACA Int’l stated is provided below:
So which is it: does a device qualify as an
ATDS only if it can generate random or
sequential numbers to be dialed, or can it so
qualify even if it lacks that capacity? The 2015
ruling, while speaking to the question in several
ways, gives no clear answer (and in fact seems to
give both answers). It might be permissible for
the Commission to adopt either interpretation.
But the Commission cannot, consistent with
reasoned decisionmaking, espouse both
competing interpretations in the same order.
(ACA Int’l slip op. at 27.)
The court in ACA Int’l had to determine whether the
FCC’s 2015 Order was arbitrary or capricious. If so,

41

Marks, at p. 20, internal footnotes omitted.

App. 58
then the Order would be set aside. One way to show an
order is arbitrary is to show conflicting mandates in
that order. The court in ACA Int’l was essentially
stating that the Commission could define an ATDS one
way, or another way, but not both ways at the same
time in the order.
To illustrate this with a whimsical example,
consider an agency regulation that interprets a
statute’s language by stating: a) widget cannot be
present, but then states, b) a widget is required to be
present. Without knowing the details of what a widget
is, without knowing the statutory language, and
without knowing whether the statute requires a widget
to be present or not, a determination can be made that
the regulation is arbitrary, because the agency “cannot,
consistent with reasoned decisionmaking, espouse both
competing interpretations in the same order.”42
The court in ACA Int’l did not have to evaluate the
correct functionality of an ATDS in order to reach the
conclusion that the Commission’s 2015 Order was
arbitrary. The court merely noted that the Commission
cannot espouse competing interpretations in the same
order; doing so renders the order arbitrary or
capricious. Returning to the whimsical widget example,
a court could find that perhaps the statute does
requires a widget to be present, or perhaps the statute
requires the widget to be absent, but the statute cannot
be interpreted as requiring both.

42

Marks, p. 13.

App. 59
Thus, the statements by the court in ACA Int’l
should not be interpreted as an evaluation that the
statutory language in the TCPA was ambiguous. ACA
Int’l did not address the issue of whether the statute
was ambiguous and the Commission should not be
swayed by the 9th Circuit logic that ACA Int’l supported
the finding that the statutory definition is ambiguous.
VI.

A CORRECTED VIEW OF THE RECORD
OF THE COMMISSION’S AUTHORITY TO
ADAPT TO NEW TECHNOLOGIES

The 9th Circuit provided dicta related the
Commission’s authority under the TCPA to adapt to
technology changes. This statement has been used as
an implied authorization that the Commission can
adapt the TCPA language to evolving technology. The
court stated:
Further, the FCC thought that it was clear “that
Congress anticipated that the FCC, under its TCPA
rulemaking authority, might need to consider
changes in technologies.” Id. [Referring to the 2003
Order] Accordingly, the FCC concluded that an
interpretation of the statutory definition of ATDS
which excluded new technology that could
automatically dial thousands of numbers merely
because it “relies on a given set of numbers would
lead to an unintended result” and fail to effectuate
the purpose of the statutory requirement. Id.43
The Commission’s 2003 Order stated that “Congress
anticipated that the FCC, under its TCPA rulemaking
43

Marks, p. 11.

App. 60
authority, might need to consider changes in
technologies” and supported this assertion by citing two
sources of authorities in the footnote:
See 137 Cong. Rec. S18784 (1991) (statement
of Sen. Hollings) (“The FCC is given the
flexibility to consider what rules should apply to
future technologies as well as existing
technologies.”). See also Southern Co. v. FCC,
293 F.3d 1338, 1346 (11th Cir. 2002) (“While the
FCC is correct that the principle of
nondiscrimination is the primary purpose of the
1996 Telecommunications Act, we must construe
statutes in such a way to ‘give effect, if possible,
to every clause and word of a statute’.”) (quoting
Williams v. Taylor, 529 U.S. 362, 404 (2000)
(internal quotation marks omitted)).44
First of all, the statement of Senator Hollings (a
copy of which is attached) begins by emphasizing a
provision in the proposed TCPA statue allowing the
Commission to exempt certain technologies:
Therefore, this bill includes a provision that
allows those who use automated or prerecorded
voice systems to apply to the FCC for an
exemption from this prohibition. The bill gives
the FCC the authority to exempt from these
restrictions calls that are not made for a
commercial purpose and categories of calls that
the FCC finds do not invade privacy rights. If
the FCC determines that such an exemption is

44

FCC 2003 Order, footnote 436.

App. 61
warranted based on the record it develops, the
FCC may grant such an exemption, subject to
whatever conditions it determines to be
appropriate.
Senator Hollings provides an example of such an
innovative, yet-to-be-offered service:
Some telephone companies are beginning to
offer a voice messaging service which delivers
personal messages to one or more persons. A
person calling from a pay telephone at an
airport, for instance, may call and leave a
recorded message to be delivered later if the
called line is busy or no one answers the call.
Some debt collection agencies also use
automated or prerecorded messages to notify
consumers of outstanding bills. The FCC should
consider whether these types of prerecorded
calls should be exempted and under what
conditions such an exemption should be granted
either as a noncommercial call or as a category
of calls that does not invade the privacy rights of
consumers.
Senator Hollings did not want such innovative services
to be squelched from being offered to the public because
they ran afoul of the TCPA. To avoid depriving the
public of new technologies and services, Senator
Hollings ensured that the TCPA allowed the FCC to
exempt such new technologies. Thus, Senator Hollings
stated:
The FCC is given the authority to exempt certain
types of calls, and the FCC is not limited to

App. 62
considering existing technologies. The FCC is given
the flexibility to consider what rules should apply to
future technologies as well as existing technologies.
To recap, Senator Hollings wanted to ensure that
certain futuristic services could be exempted by the
Commission if deemed appropriate. The provision that
granted this authority to the FCC is found in the
TCPA, Section (b)(1)(B) and (2)(B) which allows the
FCC to exempt certain calls that play an artificial or
prerecorded voice message to residential telephone
lines. Senator Hollings was not granting any authority
based on the statutory language to the Commission to
evolve their regulatory authority based to encompass
future technologies.
The citation to Southern Co. v. FCC (quoting
Williams v. Taylor) merely supports that interpretation
of a statute is “give effect, if possible, to every clause
and word of a statute.” Applying this does not in any
way indicate the Commission has authority to modify
the ATDS definition, but instead must apply the words
in the statute.
There is no basis whatsoever to conclude that
Congress intended, nor that the TCPA authorizes, the
Commission to adapt or extend the statutory language
of an ATDS in anticipation of the development of new
technologies. The only authority granted to the
Commission was to exempt new technologies. Using
these citations as authorization to evolve the scope of
the TCPA is, at least, a creative interpretation. A more
accurate interpretation is that there was no intention
to authorize the Commission to expand the scope of the
TCPA to encompass new technologies.

App. 63
This mischaracterization was identified in 2006 by
ACA International’s Supplemental Submission to
Petition for an Expedited Clarification and Declaratory
Ruling.45 The Commission should acknowledge that the
TCPA statute does not give it the authority to modify
the TCPA statute, and that the definition of the ATDS
is not ambiguous. The Commission is respectfully
request to clarify the record of the above misconception,
so that future briefs and rulings do not refer to this
misrepresentation.
VII.

CONCLUSION

The statutory language of the definition of an ATDS
is not ambiguous. The scope of the ATDS definition
explicitly addresses known dialer technology at that
time that would indiscriminately call numbers that
were both produced and/or stored in a file and then
dialed. It is incorrect to presume that the statutory
language is ambiguous because random or sequential
number generators in digital devices could not store a
number. Such devices were known in the art to store
numbers, either in conjunction with their generation or
in conjunction when copying the number to a file. In
either case, the number would be dialed.
Without showing that the statutory language is
ambiguous, the Commission should limit any
forthcoming regulations to implementing the plain
language of the statute. This means that equipment
considered an ATDS must have the functions of 1) a
random or sequential number generator to generate a

45

Filed April 26, 2006, page 13, footnote 25.

App. 64
telephone number and 2) the ability to dial that
number. No further functions or requirements should
be incorporated into the definition as there is no
statutory basis for doing so.
Respectfully submitted on October 16, 2018
/Karl Koster/
Karl Koster,
Chief IP and Regulatory Counsel
Noble Systems Corporation
1200 Ashwood Parkway
Atlanta, GA 30338 (404) 851-1331 (x1397)

